1a
APPENDIX A
Supreme Court of Rhode Island
Robin BRINDLE et al.
v.
RHODE ISLAND DEPARTMENT OF LABOR AND
TRAINING, by and through its Director, et al.
No. 2016-324-M.P. (PC 12-3075)
No. 2016-325-M.P. (PC 12-3076)
No. 2016-326-M.P. (PC 12-3073)
No. 2016-328-M.P. (PC 12-3072)
No. 2016-329-M.P. (PC 12-3071)
June 18, 2019
Justice Goldberg, for the Court.
These consolidated cases came before the Supreme Court on November 27, 2018. The petitioners,
Robin Brindle, Kathleen Brown, Sandra Carter,
Marcie LaPorte, and Kelvin Ramirez (a/k/a Kevin
Ramirez) (collectively petitioners), filed petitions for
writ of certiorari to this Court pursuant to the Administrative Procedures Act, G.L. 1956 § 42-35-16,
seeking review of a Superior Court judgment affirming a decision of the Rhode Island Department of
Labor and Training (the DLT) that denied the petitioners’ wage and hour claims against Delta Airlines,
Inc. (Delta). Before this Court, the petitioners argue
that the Superior Court erred in affirming the DLT’s
finding that G.L. 1956 § 25-3-3 is preempted by federal law, specifically, 49 U.S.C. § 41713(b)(1) of the
Airline Deregulation Act (ADA). For the reasons set
forth herein, we affirm the judgment of the Superior
Court.

2a
Facts and Travel
Between September 6, 2011, and September 13,
2011, petitioners, who were customer service agents
for Delta at its facility at the T.F. Green Airport in
Warwick, Rhode Island, filed five separate individual
“nonpayment of wages” complaints with DLT. Each
complaint alleged that Delta violated the provisions
of § 25-3-3 by failing to pay petitioners time-and-ahalf for hours worked on Sundays and holidays. Delta filed a response with DLT on November 16, 2011,
arguing that the complaints should be dismissed because § 25-3-3, which mandates the payment of timeand-a-half for work performed on Sundays and holidays, is preempted by the ADA. Section 25-3-3(a)
provides, in part, that:
“Work performed by employees on Sundays and
holidays must be paid for at least one and onehalf (1 1/2) times the normal rate of pay for the
work performed; provided: (1) that it is not
grounds for discharge or other penalty upon
any employee for refusing to work upon any
Sunday or holiday enumerated in this chapter[.]”
The petitioners’ complaints and Delta’s letter
were addressed at a hearing before a DLT hearing
officer on May 8, 2012. At the hearing, the hearing
officer did not take testimony or receive other evidence. Instead, the hearing officer indicated that she
was “inclined to agree with” Delta that § 25-3-3 is
preempted by the ADA; but she allowed petitioners
to raise any arguments that their wage complaints
were not preempted. The petitioners elected not to
raise any argument before the hearing officer on the

3a
issue of preemption. In a written decision, 1 the hearing officer concluded that the DLT was “preempted
from enforcing wage laws for airline employees” because requiring Delta to pay petitioners time-and-ahalf for hours worked on Sundays and holidays relates to Delta’s prices, routes, or services, which, in
turn, triggers preemption in accordance with the
ADA. The hearing officer declared that DLT has no
authority to adjudicate the claims, and therefore
dismissed all five complaints. The petitioners timely
appealed to the Superior Court, in accordance with
§ 42-35-15. 2
On appeal before the Superior Court, petitioners
argued that the hearing officer’s decision to dismiss
the complaints was affected by an error of law because the ADA does not preempt § 25-3-3. The Superior Court subsequently concluded that the hearing
officer erred in dismissing petitioners’ complaints
because she failed to hear, review, or weigh evidence
demonstrating that petitioners’ wage complaints had
a sufficient connection to Delta’s prices, routes, or
services to warrant preemption. In accordance with
§ 42-35-15, the Superior Court remanded the case to
the DLT for a further hearing and a finding of fact
on the issue of the effect of employee wages on Delta’s prices, routes, and services.
The remand hearing was conducted by the DLT
on May 4, 2015, before the same hearing officer. At
Because petitioners filed separate individual complaints with
the DLT, the DLT issued five separate decisions, indistinguishable in substance.
2 The petitioners originally filed separate appeals with the Superior Court on June 15, 2012; however, because each case presented identical legal issues, petitioners’ appeals were consolidated by the Superior Court on October 5, 2012.
1

4a
that hearing, Kelly Fredericks, President and CEO
of the Rhode Island Airport Corporation (RIAC), testified to his experience in the aviation and transportation industry, which spanned more than thirty
years. Mr. Fredericks explained that a critical component of his job at RIAC was to attract and maintain air-carrier service at T.F. Green Airport, which
services eight airline carriers and approximately
10,000 travelers per day. He testified that cost and
demand, including labor costs, are factors that air
carriers take into consideration when deciding
whether to do business in Rhode Island. Mr. Fredericks agreed that higher labor costs in Rhode Island
would make RIAC “less competitive in the market
for air services” and therefore that a statute that requires Sunday and holiday premium pay could have
a significant negative impact on air carriers conducting business in Rhode Island; could alter flights into
and out of the airport; or could affect the number of
employees scheduled for Sundays or holidays.
Sandra LaPlante, the station manager for Delta
at T.F. Green Airport, testified next that she had
worked for Delta for twenty years and that her duties include oversight of Delta’s day-to-day operations, including managing and scheduling a team of
twenty-five customer service agents and ensuring
that Delta’s T.F. Green location is sufficiently staffed
for operations. Ms. LaPlante testified that service on
Sundays and holidays is important to Delta, as its
T.F. Green Airport location operates seven days per
week. She next explained that, if Delta were forced
to pay Sunday premium time to its Rhode Island
workers, it could affect the customer service that is
provided at T.F. Green Airport and cause Delta to
modify the services that it provides on those particu-

5a
lar days because it could lead to a reduction of staff.
After considering the testimony and weighing the
credibility of the witnesses, the hearing officer, for
the second time, concluded that petitioners’ wage
claims were preempted by the ADA, and she dismissed the complaints. In a written decision, the
hearing officer found that Ms. LaPlante’s testimony
was persuasive because of her twenty years with
Delta, in various positions, including station manager charged with overseeing customer service. In
reaching her conclusion, the hearing officer pointed
to Ms. LaPlante’s testimony that an increase in employees’ wages would affect Delta’s services. The
hearing officer also found that, although not specific
to Delta, the testimony of Mr. Fredericks about the
factors that an air carrier considers when determining whether to locate or remain at a particular airport applied to air carriers such as Delta and was
supported by the testimony of Ms. LaPlante. Therefore, because the testimony demonstrated “that increased pay on Sundays and holidays could impact
staffing which would impact the level of service[,]”
the hearing officer found that § 25-3-3’s time-and-ahalf requirement is preempted from application at
T.F. Green Airport by the ADA.
The petitioners appealed the second decision to
the Superior Court and argued that the hearing officer committed an error of law in finding that § 253-3 was preempted because the potential for an increase in labor costs posed by compliance with § 253-3 is, petitioners opined, insufficient to trigger
preemption. The petitioners also argued that the decision of the hearing officer is flawed because Delta
failed to prove that increased labor costs would have
a significant impact on prices, routes, or services. In

6a
turn, it was Delta’s contention that § 25-3-3 is a
“blue law” designed to regulate work and wages on
Sundays and holidays. Delta argued that, if made
applicable to airlines, § 25-3-3 would dictate how airline carriers can employ employees, which is sufficient to trigger preemption. 3 Delta also claimed that
the decision of the hearing officer was supported by
substantial evidence in the record to demonstrate
that requiring Delta to comply with § 25-3-3 would
significantly impact its prices, routes, and services.
In a written decision, the Superior Court affirmed
the decision of the hearing officer. The Superior
Court justice found that, as a matter of law, § 25-3-3
is preempted by the ADA because the statute attempts to regulate the work force on Sundays and
holidays, which “affects the competitive market force
of airlines.” The Superior Court justice explained
that requiring air carriers in Rhode Island to comply
with § 25-3-3’s premium pay provision would have a
direct impact on the prices, routes, and services of
Delta because it would influence their decisionmaking process regarding discretionary services,
customer interaction, and staffing. In addition, the
Superior Court justice concluded that the decision of
the hearing officer was not clearly erroneous, but it
was supported by adequate and legally competent
evidence. Specifically, the Superior Court justice explained that the hearing officer accepted Mr. Fredericks and Ms. LaPlante’s testimony concerning the
effect that § 25-3-3 would have on Delta’s prices,
routes, and services as credible, and she favorably
Although not raised by the parties, we note that G.L. 1956
§ 25-3-3 allows an employee to refuse “to work upon any Sunday or holiday[.]”

3

7a
noted their demeanor and forthright answers. The
Superior Court thus concluded that the decision of
the hearing officer was “neither affected by error of
law nor clearly erroneous.”
Standard of Review
On certiorari, this Court does not weigh the evidence; instead, “we limit the scope of our review to
the record as a whole to determine whether any legally competent evidence exists therein to support
the trial court’s decision or whether the trial court
committed error of law in reaching its decision.”
Rhode Island Temps, Inc. v. Department of Labor
and Training, Board of Review, 749 A.2d 1121, 1124
(R.I. 2000). Legally competent evidence is defined as
“such relevant evidence that a reasonable mind
might accept as adequate to support a conclusion,
and means an amount more than a scintilla but less
than a preponderance.” Id. at 1125 (quoting Center
for Behavioral Health, Rhode Island, Inc. v. Barros,
710 A.2d 680, 684 (R.I. 1998)). This Court engages in
a de novo review of determinations of law made in
the course of an administrative proceeding. See
Johnston Ambulatory Surgical Associates, Ltd. v.
Nolan, 755 A.2d 799, 805 (R.I. 2000). We will reverse
a decision of the Superior Court in this context only
if we find that the decision has “no reliable, probative, [or] substantial evidence” to support it. State v.
Rhode Island State Labor Relations Board, 694 A.2d
24, 28 (R.I. 1997) (quoting Barrington School Committee v. Rhode Island State Labor Relations Board,
608 A.2d 1126, 1138 (R.I. 1992)).
Discussion
The sole issue before the Court is whether the Su-

8a
perior Court erred in affirming DLT’s finding that
§ 25-3-3 is preempted by 49 U.S.C. § 41713(b)(1) of
the ADA. Specifically, we are tasked with considering whether the Superior Court justice committed an
error of law in upholding the decision of the DLT
that compliance with the requirements of § 25-3-3
will significantly impact the prices, routes, and services of airline carriers and, thus, is preempted by
the ADA. We perceive no error.
The ADA was enacted in 1978 to promote “efficiency, innovation, and low prices” in the air transportation industry through “maximum reliance on
competitive market forces and on actual and potential competition[.]”49 U.S.C. §§ 40101(a)(6), 12(A);
Northwest, Inc. v. Ginsberg, 572 U.S. 273, 280, 134
S.Ct. 1422, 188 L.Ed.2d 538 (2014). By enacting the
ADA, Congress largely deregulated domestic air
transportation. See American Airlines, Inc. v.
Wolens, 513 U.S. 219, 222, 115 S.Ct. 817, 130
L.Ed.2d 715 (1995). “To ensure that the States would
not undo federal deregulation with regulation of
their own,” Congress included a preemption clause
as part of the ADA. Morales v. Trans World Airlines,
Inc., 504 U.S. 374, 378, 112 S.Ct. 2031, 119 L.Ed.2d
157 (1992). Under the preemption clause, the party
claiming that preemption applies must establish
that “a State, political subdivision of a State, or political authority of at least [two] States * * * enact[ed] or [is] enforc[ing] a law, regulation, or other
provision having the force and effect of law related to
a price, route, or service of an air carrier[.]” See 49
U.S.C. § 41713(b)(1). A law “relates to” a price, route,
or service of an air carrier if it has “a connection
with, or reference to” an air carrier’s prices, routes,
or services. Morales, 504 U.S. at 384, 112 S.Ct. 2031.

9a
Thus, where a state law has “the forbidden significant effect” on the prices, routes, or services of an air
carrier, the ADA preempts that law. See id. at 388,
112 S.Ct. 2031; see also United Parcel Service, Inc. v.
Flores-Galarza, 318 F.3d 323, 335 (1st Cir. 2003).
It is clear that federal preemption of state law is a
matter of federal constitutional law. The Supremacy
Clause, in Article VI of the United States Constitution, directs that federal law “shall be the supreme
law of the land; and the judges in every state shall
be bound thereby * * *.” U.S. Const. Art. VI, cl. 2.
Under the Supremacy Clause, if Congress so intends, state laws may be preempted by federal law
and will be considered to be “without effect.” Cipollone v. Liggett Group, Inc., 505 U.S. 504, 516, 112
S.Ct. 2608, 120 L.Ed.2d 407 (1992) (quoting Maryland v. Louisiana, 451 U.S. 725, 746, 101 S.Ct. 2114,
68 L.Ed.2d 576 (1981)). The intention to preempt
state law may arise explicitly from the language employed in the statute or implicitly from the statute’s
structure and purpose. Morales, 504 U.S. at 383, 112
S.Ct. 2031. In the case at bar, Delta relies upon the
express language of the ADA in asserting that petitioners’ state law claims are preempted.
The United States Supreme Court has offered important guidance as to how the ADA’s preemption
clause is to be interpreted. Notably, the Supreme
Court has recognized that the term “related to” in
the phrase “related to a price, route, or service” expresses “a broad pre-emptive purpose.” See Ginsberg,
572 U.S. at 281, 134 S.Ct. 1422 (noting that the
phrase “other provision having the force and effect of
law” is much more broadly worded than other legislation that expressly applies only to a law or regulation; therefore, ADA preemption includes suits at

10a
common law); see also Wolens, 513 U.S. at 225, 115
S.Ct. 817; Morales, 504 U.S. at 383, 384, 112 S.Ct.
2031. For example, in Morales, the United States
Supreme Court held that the ADA expressly
preempted the application of state deceptive business practice statutes to airline fare advertisements
because such regulation related to the content and
format of air carrier fare advertising and had a “significant impact upon the airlines’ ability to market
their product, and hence a significant impact upon
the fares they charge.” Morales, 504 U.S. at 390, 112
S.Ct. 2031. The Court explained that the ADA’s
broad preemption clause meant state laws and regulations “having a connection with or reference to airline ‘rates, routes, or services,’ are pre-empted” by
the ADA. Id. at 384, 112 S.Ct. 2031. Thus, even an
indirect effect by a state law of general applicability
is sufficient to meet the “related to” language in the
preemption clause. Id. at 386-87, 112 S.Ct. 2031. On
the other hand, the Supreme Court has recognized
that, in some cases in which the preemption bar is
raised, the challenged enactment may have “‘too
tenuous, remote, or peripheral a manner’ to have
pre-emptive effect.” Id. at 390, 112 S.Ct. 2031 (quoting Shaw v. Delta Airlines, Inc., 463 U.S. 85, 100
n.21, 103 S.Ct. 2890, 77 L.Ed.2d 490 (1983)).
Next, in Wolens, the Supreme Court reaffirmed
the breadth of the ADA’s preemption clause; in that
case, the plaintiffs were participants in American
Airlines’ frequent-flyer program who claimed to be
injured by modifications to the program and brought
suit claiming breach of contract and violation of the
Illinois Consumer Fraud Act. Wolens, 513 U.S. at
224-25, 115 S.Ct. 817. The Supreme Court held that
claims under the Illinois Consumer Fraud Act were

11a
preempted by the ADA, but that the breach-ofcontract claims were not. Id. at 226, 115 S.Ct. 817.
The Supreme Court explained that the frequent-flyer
program in question related to the air carrier’s rates
because the airline gave mileage credits for free tickets, upgrades, and services, and because the program provided access to flights and service class upgrades regardless of capacity controls and blackout
dates. Id. In contrast, the breach-of-contract claims
were not preempted because they did not allege a violation of a state-imposed obligation, but rather alleged a violation of a self-imposed (contractual) obligation. Id. at 229, 115 S.Ct. 817. The Supreme Court
stressed that the purpose of the ADA was to promote
market efficiency and that the ability to enforce private contracts through a breach-of-contract action
was fundamental to a stable and efficient market.
Id. at 230, 115 S.Ct. 817.
Most recently, in Ginsberg, the Supreme Court
held that an airline customer’s claim for breach of
the implied covenant of good faith and fair dealing
was preempted by the ADA. Ginsberg, 572 U.S. at
288, 134 S.Ct. 1422. The airline had terminated the
customer’s membership in the airline’s frequent flyer
program based on alleged abuse of the program. Id.
at 277, 134 S.Ct. 1422. The customer sued, alleging,
among other things, that the termination of his
membership violated the implied covenant of good
faith and fair dealing. Id. at 278, 134 S.Ct. 1422. The
Supreme Court explained that even state commonlaw rules such as the implied covenant of good faith
and fair dealing are preempted by the broad sweep
of the ADA such that an exemption for common-law
claims would be contrary to the ADA’s central purpose. Id. at 281-82, 134 S.Ct. 1422. The Supreme

12a
Court went on to explain that what was important
was the effect of the challenged provision on prices,
routes, or services, because state common-law rules
can undermine the purpose of the ADA as much as a
statute or regulation can. Id. at 282, 283, 134 S.Ct.
1422. The Supreme Court further explained that the
claim in question was clearly related to “rates,
routes, or services” because the plaintiff sought reinstatement in the airline’s frequent-flyer program so
that he could accrue mileage credits that could be
redeemed for tickets and upgrades. Id. at 284-85,
134 S.Ct. 1422.
Accordingly, federal preemption under the ADA
extends to claims related to state consumerprotection statutes, frequent-flyer programs, common-law implied covenants, and advertising guidelines, because of a connection to the core “services”
that an airline provides. With these principles in
mind, we turn to the merits of whether petitioners’
claims are preempted by the ADA.
As a preliminary matter, the fact that § 25-3-3
may impose costs on airlines and therefore adversely
affect fares is inconsequential. As the First Circuit
noted, were preemption to apply to a state law solely
in that circumstance, preemption “would effectively
exempt airlines from state taxes, state lawsuits of
many kinds, and perhaps most other state regulation
of any consequence.” DiFiore v. American Airlines,
Inc., 646 F.3d 81, 89 (1st Cir. 2011). Because “countless state laws have some relation to the operations
of airlines and thus some potential effect on the prices charged or services provided[,]” we recognize that
there is a limit to the ADA’s preemptive scope. Id. at
86 (emphasis in original). Nevertheless, on certiorari, petitioners argue that Delta failed to satisfy its

13a
burden of proof of demonstrating that compliance
with § 25-3-3 would have a “significant impact” on
its prices, routes, and services because, petitioners
contend, the record is devoid of any facts upon which
one could reasonably conclude that an increase in
labor costs alone would have any impact on rates,
routes, and services, “much less a significant impact.” Contrary to petitioners’ contention, however,
Delta has demonstrated that compliance with § 25-33 goes far beyond a mere increase in labor costs.
The First Circuit has emphasized that evidence of
“a statute’s ‘potential’ impact on carriers’ prices,
routes, and services can be sufficient if it is significant, rather than tenuous, remote, or peripheral.”
Massachusetts Delivery Association v. Coakley, 769
F.3d 11, 21 (1st Cir. 2014); see Dilts v. Penske Logistics, LLC, 769 F.3d 637, 647 (9th Cir. 2014) (stating
that even a statute’s potential impact on carrier’s
prices, routes, and services can be sufficient). Empirical evidence in this regard is not necessary, and
courts may “look to the logical effect that a particular scheme has on the delivery of services or the setting of rates.” Coakley, 769 F.3d at 21 (brackets
omitted) (quoting New Hampshire Motor Transport
Association v. Rowe, 448 F.3d 66, 82 n.14 (1st Cir.
2006)). Such “logical effect can be sufficient even if
indirect.” Id.
The petitioners take issue with the fact that Delta’s evidence at the remand hearing was limited to
two witnesses who failed to provide “a single fact upon which it could base a prediction of such baleful
effects.” Specifically, petitioners assert that Delta
failed to satisfy its burden of demonstrating how
compliance with § 25-3-3 would affect labor costs and
how compliance with § 25-3-3 would be so onerous as

14a
to drive airlines away from Rhode Island, because
Delta’s witnesses were not experts, their opinions
were speculative, and their conclusions were unsupported by facts or quantifiable evidence. However,
we are hard-pressed to agree because, as elucidated
above, conclusive evidence of the potential impact is
not required to trigger preemption. The First Circuit
in Coakley did not announce a categorical rule that
an airline always needs to provide analytical data on
the effect of a petitioner’s claim on its prices or services in order to demonstrate preemption under the
ADA. Rather, in deciding the preemption question,
the First Circuit explicitly “allowed courts to ‘look to
the logical effect that a particular scheme has on the
delivery of services or the setting of rates.’” Coakley,
769 F.3d at 21 (brackets omitted) (quoting Rowe, 448
F.3d at 82 n.14).
During the remand hearing before the hearing officer, Delta offered the sworn testimony of Ms.
LaPlante, the station manager for Delta at T.F.
Green Airport, and Mr. Fredericks, President and
CEO of RIAC. They testified that forcing Delta, and
other airlines, to comply with the requirements of §
25-3-3 could impact the services that Delta and other
airlines provide on Sundays and holidays. 4 Mr.
Fredericks testified that, in his experience, forcing
compliance with § 25-3-3’s time-and-a-half pay
would have a direct impact on an airline’s decisionmaking process concerning discretionary services,
customer interaction, and staffing. He testified that
Sundays and holidays are some of the most imAs relevant here, “service” includes “steps that occur before *
* * the airplane is actually taxiing or in flight.” DiFiore v.
American Airlines, Inc., 646 F.3d 81, 87-88 (1st Cir. 2011).
4

15a
portant days to RIAC and stated that increased labor costs “could lead to reduction in service from a
flight frequency opportunity[.]” In addition, Ms.
LaPlante testified that one of her main duties is to
ensure that Delta provides superior customer service, and that forcing Delta to pay premium pay to
its Rhode Island employees could impact or modify
staffing and services; this, according to Ms.
LaPlante, would likely cause airlines like Delta to
reduce staff on Sundays and holidays and would
make Delta less competitive in the Rhode Island
market. With this testimony in hand, the conclusion
that requiring airlines such as Delta to provide oneand-one-half-times the normal rate of pay for work
on Sundays and holidays does in fact “relate to” the
services provided by Delta. Thus, the “logical effect”
of § 25-3-3 on Delta’s delivery of services is sufficient
to bring it within the preemptive scope of the ADA.
Accordingly, we are satisfied that there was sufficient evidence in the record for the Superior Court to
conclude that DLT’s decision was supported by adequate and legally competent evidence.
Conclusion
For the reasons set forth herein, we affirm the
judgment of the Superior Court. The record may be
remanded to the Superior Court with our decision
endorsed thereon.

16a
APPENDIX B
Superior Court of Rhode Island
Providence County
Kathleen BROWN, Robin Brindle, Sandra Carter,
Kimberly Clayman, Marcie Laporte, and Kelvin
Ramirez, aka Kevin Ramirez, Plaintiffs,
v.
DELTA AIRLINES, INC., Defendants.
No. PC 12-3075.
October 3, 2016.
Decision
MCGUIRL, J. The Plaintiffs—Kathleen Brown,
Robin Brindle, Sandra Carter, Kimberly Clayman,
Marcie Laporte, and Kevin Ramirez (Plaintiffs)—
seek judicial review of a decision of the Board of Review of the Department of Labor and Training
(Board of Review or DLT). In its decision, the Board
of Review rejected the Plaintiffs’ claims for wages
and found that requiring Delta Airlines, Inc. (Delta)
to pay its employees one and one-half times the
normal rate of pay for hours worked on Sundays and
holidays, as required by G.L. 1956 § 25-3-3, is related to the rates, routes, or services of airline carriers
and therefore is preempted by the Airline Deregulation Act (ADA), 49 USC § 40101(a)(12). The Court
exercises jurisdiction pursuant to G.L. 1956 §§ 4235-15, et seq. For the reasons set forth herein, this
Court affirms the DLT’s decision.

17a
I
Facts and Travel
The Plaintiffs were employees of Delta at Delta’s
facility in the T.F. Green Airport in Warwick, Rhode
Island (TF Green). Between September 6 and September 13 of 2011, the Plaintiffs filed complaints
with the DLT, alleging that Delta violated provisions
of §§ 25-3-1, et seq., entitled “Work on Sundays or
holidays.” Specifically, the Plaintiffs claimed that
Delta violated § 25-3-3 1 by failing to pay them one
and one-half times their normal rate of pay (premium pay) for the hours they worked on Sundays and
holidays.
On May 9, 2012, Mary Ellen McQueeney Lally, a
DLT hearing officer (Hearing Officer), conducted a
hearing on the Plaintiffs’ claims against Delta. See
Ramirez v. R.I. Dep’t of Labor and Training, 2014
WL 4412618 (R.I. Super. Sept. 3, 2014). During such
hearing, Delta moved to dismiss the case as a matter
of law and asserted that requiring Delta to provide
its employees with premium pay for the hours that
they worked on Sundays and holidays is related to
Delta’s rates, routes, or services, and therefore triggers preemption under the ADA. 2 See id. The DLT
Section 25-3-3(a) requires that “[w]ork performed by employees on Sundays and holidays must be paid for at least one and
one-half (1 1/2) times the normal rate of pay for the work performed; provided: (1) that it is not grounds for discharge or other penalty upon any employee for refusing to work upon any
Sunday or holiday enumerated in this chapter[.]”Sec. 25-3-3(a).
2 The ADA was enacted by Congress “to encourage, develop,
and attain an air transportation system which relies on competitive market forces to determine the quality, variety, and
price of air services, and for other purposes.” See 49 USC §§
40101, et seq.
1

18a
issued six decisions 3 and found that requiring Delta
to provide the Plaintiffs with premium pay relates to
its prices, routes, and services. See id. The DLT explained that as a result, the ADA preempted the
Plaintiffs’ claims under § 25-3-3, and therefore, the
statute could not be applied against Delta. See id.
Accordingly, the DLT ruled that it was “preempted
from enforcing wage laws for airlines employees” and
that it had no jurisdiction to adjudicate the Plaintiffs’ claims. Id.
Thereafter, on June 15, 2012, the Plaintiffs timely
appealed 4 to the Superior Court. See id. at *2; see also § 42-35-15. In their appeal, the Plaintiffs asserted
that the DLT’s decision was affected by error of law
because it misconstrued the breadth of the ADA. See
Ramirez, 2014 WL 4412618 at *4. The Plaintiffs further claimed that Delta failed to produce any evidence to support the DLT’s conclusion that requiring
Delta to compensate its employees with premium
pay for hours worked on Sundays and holidays
would have a significant impact on its rates, routes,
and services, and therefore, such statutory requireThe DLT issued six separate decisions because, at that point
in time, the Plaintiffs each had filed a separate complaint with
the DLT; however, each of the Plaintiffs’ claims were indistinguishable in substance.
4 Plaintiffs originally filed separate appeals with the Superior
Court on June 15, 2012. Id. at *2. On September 18, 2012,
Plaintiffs filed a motion to consolidate their appeal because
each case presented identical legal issues. Id.; see Super. R.
Civ. P. 7(b)(3)(ii) (allowing for parties to submit a motion to
consolidate cases for trial). Both the DLT and Delta did not object to such request. On or about October 3, 2012, the Plaintiffs’
motion to consolidate PC-2012-3071, PC-2012-3072, PC-20123073, PC-2012-3074, and PC-2012-3076 was granted. See
Ramirez, 2014 WL 4412618 at *2.
3

19a
ment was not preempted by the ADA. See id. at *7.
In response, Delta asserted that the DLT properly
found that the Plaintiffs’ claims for premium pay
were preempted by the ADA. See id. As a result, Delta moved to dismiss the Plaintiffs’ claims. See id. at
*4.
On September 3, 2014, this Court issued a decision concluding that the DLT erred in dismissing the
Plaintiffs’ claims without the presentation of factual
evidence on the preemption issue. See id. at *8-9.
This Court remanded the matter to the DLT for a
further hearing and a finding of fact on the issue of
the effect of employee wages on Delta’s rates, routes,
and services. See id. at *9.
Consequently, on May 4, 2015, the parties went
before the DLT for the remanded hearing that was
ordered on this matter. See Department of Labor and
Training, Division of Labor Standards Claim No. LS
2011-396, September 1, 2015 decision at 2 (Decision).
During the hearing, Kelly Fredericks (Mr. Fredericks), President and CEO of the Rhode Island Airport Corporation (RIAC), and Sandra LaPlante (Ms.
LaPlante), station manager for Delta at TF Green,
testified on behalf of Delta. See id. Neither witness
qualified as an expert.
Mr. Fredericks testified that he was President and
CEO of the RIAC for two years, but had experience
in the aviation and transportation industry as a civil
engineer and as the chief operating officer of an international airport for approximately thirty-five
years. Tr. at 19-20, 21-22. Mr. Fredericks stated that
as President and CEO of RIAC, a critical component
of his job is attracting and maintaining air carrier
services at TF Green. Id. at 22-23. Mr. Fredericks

20a
testified that TF Green services eight airline carriers
and approximately 10,000 travelers per day, with
Sundays and holidays being some of its most important days. Id. at 20-21, 32-33. Mr. Fredericks further stated a statute that allows employees to either
refuse to work on Sundays and holidays without repercussions or receive premium pay for such hours,
could significantly impact the air carriers that service RIAC. Id. at 32-33. In addition, Mr. Fredericks
stated that the two main factors that influence
whether a carrier will locate in Rhode Island are cost
and demand. Id. at 24, 37, 40-45. When asked if additional labor costs in Rhode Island would make
RIAC less competitive in the market for air services,
Mr. Fredericks answered affirmatively. Tr. at 25-26.
Mr. Fredericks further claimed that increased costs
could make Rhode Island a less attractive site to airlines in general. Id. at 26-27. Specifically, Mr. Fredericks testified that increased labor costs “could lead
to reduction in service from a flight frequency opportunity,” and could “diminish[] [RIAC’s] competitive
advantage.” Id. at 31.
Ms. LaPlante testified that she has been Delta’s
station manager at TF Green for three years but has
worked for Delta for twenty years. Id. at 47-48. Ms.
LaPlante explained that as a station manager, her
job is to oversee day-to-day operations, perform administrative work, provide superior customer service, manage schedules, and lead a team of twentyfive employees. Id. at 49-50. Ms. LaPlante testified
that Sundays and holidays are extremely important
to Delta because it is open seven days per week and
operates approximately four to five flights on Sundays. Id. at 53-54. Ms. LaPlante also claimed that,

21a
as a station manager, she is responsible5 for managing the employee schedule to ensure that minimum
staff is available to operate Delta’s flights at TF
Green and is in charge of ensuring counter, gates,
and baggage staffing. Id. at 57, 59, 71-73. In addition, Ms. LaPlante explained that she is also responsible for allocating money for employee salaries and
benefits from the budget that she obtains from Delta’s corporate headquarters. Id. at 63. Ms. LaPlante
asserted that if Delta is required to pay premium
pay to its Rhode Island employees for the hours
worked on Sundays and holidays, that requirement
could impact or modify the services that Delta provides on such days. Id. at 61-63, 64. Additionally,
Ms. LaPlante stated that the increased cost could
likely cause airlines to reduce staff on Sundays and
holidays, making Delta less competitive. Id. at 63.
Based on the testimony given and the evidence
submitted, the DLT reasoned that “[a]n increase in
salaries would change [Delta’s] budget with the possibility that an adjustment in services or staffing
would have to be made.” See Decision at 4. In reaching its conclusion, the DLT reasoned that “the logical
effect[s] that … [§ 25-3-3] has on [Delta’s] delivery of
services or the setting of rates” is “sufficient even if
indirect.” Id. at 5 (internal citations omitted). The
DLT explained that Ms. LaPlante’s testimony, which
indicated that an increase in employees’ wages
would, in fact, affect Delta’s services, was both “persuasive” and from “a unique perspective.” Id. at 4.
Ms. LaPlante did acknowledge that she is not involved in the
following: deciding how many Delta flights arrive to, and depart from, TF Green; Delta’s minimum staffing levels; the rates
Delta charges for flights; the routes Delta flies; or the services
offered by Delta. Tr. at 57, 71-73.
5

22a
The DLT also noted that, although Mr. Fredericks’
testimony was not particular to Delta, it was “credible as pertaining to air carriers and supportive of the
points made by Ms. LaPlante.” Id. Therefore, the
DLT found that compensating employees with the
premium pay is related to Delta’s rates, routes, and
services, and, as a result, the ADA preempts § 25-33’s application against Delta. Id. at 5, 6.
Thereafter, on November 18, 2015, the Plaintiffs
again timely appealed the DLT’s Decision to this
Court. See Pls.’ Brief; see also § 42-35-15. In their
appeal, the Plaintiffs assert that the DLT committed
an error of law in finding that § 25-3-3 was preempted by the ADA because the possible increase in labor
costs posed by the Sunday and holiday premium pay
requirement is insufficient to trigger preemption.
See Pls.’ Brief at 7, 21. The Plaintiffs also assert that
even if the DLT did not commit error of law, the
DLT’s Decision is clearly erroneous because Delta
failed to prove, by reliable and substantial evidence,
that increased labor costs would have a significant
impact on its rates, routes, or services. See id. As a
result, the Plaintiffs contend that the Court should
reverse the DLT’s Decision and remand the case
solely for the purpose of calculating wages, penalties,
and attorney fees. See id. Conversely, Delta asserts
that the DLT did not commit an error of law because
§ 25-3-3 is a “blue law” that dictates how airline carriers, like DLT, can employ and, in and of itself, is
sufficient to trigger preemption. See Defs.’ Brief at 1,
5, 14. Delta further asserts that the DLT’s Decision
is not clearly erroneous because reliable and substantial evidence in the record proves that requiring
Delta to abide by § 25-3-3 would significantly impact
its rates, routes, and services. Id. at 10.

23a
II
Standard of Review
The Superior Court exercises jurisdiction over appeals from the DLT pursuant to § 42-35-15(g) of the
Rhode Island Administrative Procedures Act, which
provides as follows:
“The court shall not substitute its judgment for that
of the agency as to the weight of the evidence on
questions of fact. The court may affirm the decision
of the agency or remand the case for further proceedings, or it may reverse or modify the decision if substantial rights of the appellant have been prejudiced
because the administrative findings, inferences, conclusions, or decisions are:
“(1) In violation of constitutional or statutory provisions;
“(2) In excess of the statutory authority of the agency;
“(3) Made upon unlawful procedure;
“(4) Affected by other error or law;
“(5) Clearly erroneous in view of the reliable, probative, and substantial evidence on the whole record;
or
“(6) Arbitrary or capricious or characterized by abuse
of discretion or clearly unwarranted exercise of discretion.” Sec. 42-35-15(g).
As a general rule, “[a]dministrative agencies retain broad enforcement discretion” and, thus, considerable deference is accorded to an agency’s decision. Arnold v. Lebel, 941 A.2d 813, 820 (R.I. 2007).
Such deference is additionally given to an agency’s
interpretation of a statute, whose administration
and enforcement has been entrusted to that agency.

24a
See In re Lallo, 768 A.2d 921, 926 (R.I. 2001) (stating
that an agency’s interpretation of its own statute or
regulations should be accorded “weight and deference as long as that construction is not clearly erroneous or unauthorized”) (internal citations omitted).
When considering questions of law, however, the
Court is not bound by the determination of the agency, but instead may be “freely reviewed to determine
the relevant law and its applicability to the facts
presented in the record.” State, Dep’t of Envtl. Mgmt.
v. State Labor Relations Bd., 799 A.2d 274, 277 (R.I.
2002). Therefore, “questions of law—including statutory interpretation—are reviewed de novo.” Iselin v.
Ret. Bd. of Emps’ Ret. Sys. of R.I., 943 A.2d 1045,
1049 (R.I. 2008).
Conversely, when considering questions of fact,
the Court “may not substitute its judgment for that
of the agency and must affirm the decision of the
agency unless its findings are ‘clearly erroneous.”’
Guarino v. Dep’t of Soc. Welfare, 410 A.2d 425, 428
(R.I. 1980) (citing § 42-35-15(g)(5)). Further, the
Court cannot “weigh the evidence [or] pass upon the
credibility of witnesses [or] substitute its findings of
fact for those made at the administrative level.” E.
Grossman & Sons, Inc. v. Rocha, 118 R.I. 276, 285,
373 A.2d 496, 501 (1977). Rather, § 42-35-15(g) limits the Court to an examination of the record in order
to ascertain whether the agency’s decision is supported by legally competent and substantial evidence. See Ctr. for Behavioral Health, R.I., Inc. v.
Barros, 710 A.2d 680, 684 (R.I. 1998); Kirby v. Planning Bd. of Review of Middletown, 634 A.2d 285, 290
(R.I. 1993). Legally competent evidence is such “relevant evidence that a reasonable mind might accept
as adequate to support a conclusion [and] means an

25a
amount more than a scintilla but less than a preponderance.” Town of Burrillville v. R.I. State Labor
Relations Bd., 921 A.2d 113, 118 (R.I. 2007).
III
Analysis
A
In their memorandum, the Plaintiffs argue that
the DLT’s Decision is affected by error of law, as the
ADA does not preempt § 25-3-3 because costs
alone—such as the costs imposed by § 25-3-3’s premium pay requirement—are insufficient to trigger
preemption. The Plaintiffs contend that the connection between a state law and an airline’s rates,
routes, or services cannot be de minimis, but instead,
must have a forbidden and significant impact on
rates, routes, or services. The Plaintiffs further assert that although the ADA may preempt some state
laws governing employer and employee relationships, it may not do so on the grounds of increased
labor costs alone. The Plaintiffs also allege that § 253-3 only affects labor costs because it merely dictates
how much money Delta is required to pay its workers—not how Delta is required to employ its workers. The Plaintiffs claim that, as a result, § 25-3-3
presents no significant impact on Delta’s rates,
routes, or services, and therefore, there is no justification to preempt its application. In addition, the
Plaintiffs suggest that if airlines, like Delta, were
permitted to invoke preemption based on costs alone,
such a finding would effectively exempt airlines from
state taxes, state lawsuits, and most other state regulations. The Plaintiffs conclude that § 25-3-3 is
therefore not preempted by the ADA, and thus, Del-

26a
ta is required to pay the Plaintiffs premium pay for
the hours they have worked, and continue to work,
on Sundays and holidays.
In its response brief, Delta avers that the DLT’s
Decision is not affected by error of law, as the Hearing Officer properly determined that § 25-3-3 is
preempted by the ADA. Delta insists that § 25-3-3 is
not a wage statute dictating the amount of money
employers are required to pay employees, but instead, is a “blue law” that dictates how employers
can employ. Specifically, Delta asserts that—unlike
wage laws that are intended to ensure a competitive
wage, encourage hiring, protect workers from harm,
and enforce suitable working hours—§ 25-3-3 is intended to only manage the days a business is open,
the number of employees it staffs and, thus, the services it provides. Delta claims that § 25-3-3 is therefore fundamentally different from the type of overtime and minimum wage laws that were found to be
precluded from ADA preemption. Delta additionally
contends that a law with the express purpose of discouraging employers from remaining open and, consequently, staffing employees on Sundays and holidays in order to promote a common day of rest and
relaxation for Rhode Island citizens works to unravel
the ADA’s objective, because it substitutes the competitive market forces proscribed by Congress for
those proscribed by the Rhode Island Legislature.
Delta asserts that this fact alone is sufficient to warrant ADA preemption because § 25-3-3, by its very
nature, regulates air carrier services rather than
permitting those services to be directed by market
forces, as the ADA requires. Delta concludes that §
25-3-3 is therefore undoubtedly related to the rates,
routes, and services of the airline, and is consequent-

27a
ly preempted by the ADA.
In 1978, Congress enacted the ADA in order to
promote the competitive market forces of air carriers
by guaranteeing the efficiency, innovation, low prices, variety, and quality of transportation. See 49
U.S.C. App. §§ 1302(a)(4), 1302(a)(9). By enacting
this federal regulation, Congress essentially deregulated domestic air transport. See id. To ensure that
both its purpose was achieved and “that the States
would not undo federal deregulation with regulation
of their own,” Congress included a preemption 6
clause within the ADA. Morales v. Trans World AirArticle VI, clause 2 of the United States Constitution, also
known as the Supremacy Clause, is the foundation of the federal preemption doctrine. See Verizon New England Inc. v. R.I.
Pub. Utils. Comm’n, 822 A.2d 187, 192 (R.I. 2003). Preemption
requires that “[w]here a state statute conflicts with, or frustrates, federal law, the former must give way.” CSX Transp.,
Inc. v. Easterwood, 507 U.S. 658, 663 (1993) (citing U.S. Const.,
art. VI, cl. 2; Maryland v. Louisiana, 451 U.S. 725, 746 (1981)).
Therefore, in a preemption case, state law is displaced “to the
extent that it actually conflicts with federal law.” Pacific Gas &
Elec. Co. v. State Energy Res. Conservation and Dev. Comm’n,
461 U.S. 190, 204 (1983). To determine whether a federal regulation, such as the ADA, preempts a state statute, such as § 253-3, the Court must ascertain whether the ADA “expressly provide[s] that it shall supersede related state law[.]” Verizon New
England, 822 A.2d at 192. In making this determination, courts
are required to assume that a federal statute is not to supersede the police powers of a state unless it was Congress’ “clear
and manifest purpose” to do so. California v. ARC Am. Corp.,
490 U.S. 93, 101 (1989). As previously stated, the ADA expressly preempts states from enacting any law that relates to the
rates, routes, or services of an airline carrier. See 49 U.S.C.
App. § 1305(a)(1). Therefore, the ADA would preempt § 25-3-3
if this Court finds that § 25-3-3 relates to the rates, routes, or
services of an airline carrier. See id.; see also Verizon New England, 822 A.2d at 192; Pacific Gas & Elec. Co., 461 U.S. at 204.
6

28a
lines, Inc., 504 U.S. 374, 378 (1992). This preemption
clause 7 “prohibit[s] the States from enforcing any
law ‘relating to rates, routes, or services’ of any air
carrier.”’ Id. at 378-79 (citing 49 U.S.C. App. §
1305(a)(1); see Mass. Delivery Ass’n v. Coakley, 769
F.3d 11, 21-22 (1st Cir. 2014) (stating that the purpose of this preemption doctrine is to ensure that
states do not unravel Congress’ purposeful deregulation in this area). In Morales, the United States Supreme Court made it clear that the ADA’s preemption clause would have an expansive and broad interpretation. See 504 U.S. at 384. The Court went on
to explain, for instance, that a state law will be
found to relate to the rates, routes, or services of any
air carrier, and thus in violation of the ADA, if the
state law has any connection or reference thereto,
whether directly or indirectly. See id. at 385-86. In
addition, such relation can be found to be present
when the logical effects of a statute relates to the
rates, routes, or services of an air carrier. See id.; see
also Coakley, 769 F.3d at 22 (stating that the phrase
“related to” is purposefully expansive, and further
explaining that such a determination does not require a factual inquiry into the empirical effect of a
statute on a single employer in a particular situation, but instead, a reviewing court need only look at
the real and logical effects of the state statute); N.H.
Motor Transp. Ass’n v. Rowe, 448 F.3d 66, 82 n.14
(1st Cir. 2006) (agreeing with the district court that
“there is no such quantification requirement[,]” but
instead, “[t]he cases in this area have looked to the
Specifically, § 1305(a)(1) expressly preempts states from “enact[ing] or enforce[ing] any law, rule, regulation, standard or
other provision having force and effect of law relating to rates,
routes, or services of any carrier.” 49 U.S.C. App. § 1305(a)(1).
7

29a
logical effect that a particular scheme has on the delivery of services or the setting of rates and have not
required the presentation of empirical evidence”);
Dilts v. Penske Logistics, LLC, 769 F.3d 637 (9th Cir.
2014) (stating that even a statute’s potential impact
on carrier’s prices, routes, and services can be sufficient). In applying this logic, the First Circuit found
that any state law which attempts to unravel Congress’ purposeful deregulation in the area of air
transport will also be preempted. Coakley, 769 F.3d
at 21-22. Therefore, a state law that tries to substitute its own policies for the competitive market forces explicitly protected by the ADA will be preempted.
Tobin v. Fed. Express Corp., 775 F.3d 448, 455 (1st
Cir. 2014).
Sunday closing laws were enacted to “set one day
apart from all others” in order to encourage “a day of
rest, repose, recreation and tranquility—a day which
all members of the family and community have the
opportunity to spend and enjoy together[.]”McGowan
v. Maryland, 366 U.S. 420, 450 (1961). 8 Therefore, in
order to embrace and effectuate the promotion of “a
common day of rest and recreation,” the Rhode Island Legislature enacted § 25-3-3, entitled Work on
Sunday restrictions were first called “blue laws” during the
colonial period. Lesley Lawrence-Hammer, Red, White, but
Mostly Blue: The Validity of Modern Sunday Closing Laws (citing Under the Establishment Clause, 60 Vand. L. Rev. 1273,
1306 (2007); David N. Laband & Deborah Hendry Heinbuch,
Blue Laws: The History, Economics, and Politics of SundayClosing Laws 8 (1987)). Rhode Island’s “blue laws” were designed to promote a common day of rest and recreation for
Rhode Island citizens by discouraging employers from requiring
employment on Sundays and holidays. See Ramirez v. R.I. Dep’t
of Labor and Training, 2014 WL 4412618 at *6-7 (R.I. Super.
Sept. 3, 2014).
8

30a
Holidays and Sundays. City of Warwick v. Almac’s,
Inc., 442 A.2d 1265, 1270 (R.I. 1982); see Ramirez,
2014 WL 4412618 at *3 (stating that the purpose of §
25-3-3 is “to preserve the health, safety and welfare
of [Rhode Island] citizens”) (citing Dilloff, Never on
Sunday: The Blue Laws Controversy, 39 Md. L. Rev.
679 (1980)); see also Opinion Letter of the Rhode Island Office of the Attorney General, 1984 WL 62942
(R.I.A.G.) (recognizing that Rhode Island’s Sunday
closing law, § 25-3-3, was enacted to preserve the
health, safety, and welfare of citizens). To accomplish this purpose, § 25-3-3 encourages businesses to
remain closed on Sundays and holidays by forcing
employers to compensate their employees with premium pay for work performed on those days. See
Almac’s, 442 A.2d 1265; see also §§ 25-3-3(a), 25-33(a)(1). The statute does not offer employers any sort
of recourse, and, in fact, further provides that an
employee cannot be discharged, or otherwise penalized, for refusing to work on Sundays or holidays.
See § 25-3-3(a)(1).
Here, § 25-3-3’s clear and unambiguous statutory
purpose is to promote a common day of rest and recreation by regulating the workforce and incentivizing businesses to remain closed on Sundays and holidays. See Almac’s, 442 A.2d at 1270. Specifically, §
25-3-3 forces employers to pay a penalty if they
choose to remain open on Sundays and holidays, by
requiring them to compensate employees with premium pay for the hours worked on such days. See §
25-3-3. In dictating how employers can employ
workers, § 25-3-3 attempts to regulate the work force
on Sundays and holidays, which undoubtedly affects
the competitive market force of airlines. See Almac’s,
442 A.2d at 1270; see also Tobin, 775 F.3d 448 (ex-

31a
plaining that a state statute that tries to substitute
its own policies regarding the market place will be
preempted by the ADA in light of the protection provided by its preemption clause). As the United States
Supreme Court has made clear, a state law is
preempted by the ADA when it directly substitutes
the state’s own policies for competitive market forces. Tobin, 775 F.3d at 455. That effect is no different
if the state law provides an incentive to employers, a
penalty, or an absolute prohibition. See Tobin, 775
F.3d 448. On this basis alone, this Court finds that §
25-3-3 is preempted by the ADA and cannot be applied to air carriers like Delta. Furthermore, given
the expansive interpretation of the ADA, the logical
effects of § 25-3-3 would affect Delta’s rates, routes,
and services, as well as other air carriers servicing
RIAC. See DiFiore v. Am. Airlines, 646 F.3d 81, 88
(1st Cir. 2011) (considering the implementation of a
local statute on the industry as a whole, not just on
the individual defendant). For instance, requiring
Rhode Island air carriers to comply with § 25-3-3’s
premium pay provision would have a direct influence
on their decision-making process regarding discretionary services, customer interaction, and staffing.
See Tr. at 30-31; see also Morales, 504 U.S. at 384.
As a consequence, § 25-3-3 has a direct impact on,
and therefore relates to, the rates, routes, and services of Delta. See Morales, 504 U.S. at 385-86 (stating that a state law will be found to relate to the services of any air carrier if the law has any connection
or reference thereto, whether that connection be direct or indirect).
Consequently, in order to ensure that § 25-3-3
does not unravel Congress’ purposeful deregulation
of the airline industry, the statute must be found to

32a
be preempted by the ADA. See Coakley, 769 F.3d at
21-22 (to ensure that states do not unravel Congress’
purposeful deregulation in the airline industry, state
statutes that relate to the routes, rates, or services of
airlines are preempted by the ADA). Accordingly, the
Court finds that the DLT’s Decision is not controlled
by error of law because, as a matter of law, § 25-3-3
is preempted by the ADA. See § 42-35-15(g); see also
State, Dep’t of Envtl. Mgmt., 799 A.2d 274.
B
Substantial Impact on Rates, Routes, or Services
Even assuming, arguendo, that § 25-3-3 is a wage
law that solely dictates how much money employers
are required to pay employees, the statute would
still be preempted by the ADA if it has a substantial
impact on the rates, routes, or services of the airline
industry.
In their brief, the Plaintiffs seemingly contend
that the DLT’s Decision is clearly erroneous because
the record is devoid of competent evidence demonstrating that § 25-3-3’s premium pay requirement
has a substantial impact on Delta’s rates, routes, or
services. The Plaintiffs state that in order to be entitled to ADA preemption, Delta had to prove that the
increased costs required by § 25-3-3 has, or will
have, a substantial impact on its rates, routes, and
services—a burden which the Plaintiffs assert Delta
failed to meet. In order to meet this burden, the
Plaintiffs claim that Delta had to offer far more supporting facts and evidence than merely pointing to
the potential increased labor costs that § 25-3-3
would impose. The Plaintiffs claim that Delta could

33a
have demonstrated this supposed impact by providing adequate and specific facts showing the actual
amount that § 25-3-3 would have on Delta’s costs.
Instead of doing so, the Plaintiffs submit that Delta
tried to invoke preemption on its “own say so” by
simply presenting witnesses to testify that § 25-3-3
may lead to increased costs. The Plaintiffs assert
that Delta’s attempt ultimately failed because its
witnesses were not experts; did not point to exact,
conclusive evidence of the potential cost impact; did
not have firsthand knowledge of the potential impact; and, ultimately, made broad, generalized conclusions based on their opinions. The Plaintiffs further contend that, although the Hearing Officer
found Mr. Fredericks and Ms. LaPlante’s testimony
to be credible, credibility does not substitute for the
substantial evidence that was required for the DLT
to come to its Decision. Finally, although the Plaintiffs acknowledge that a statute’s potential impact on
a carrier’s costs may, at some point, be sufficient to
trigger preemption, without the requisite underlying
facts or data, there is no support for such a conclusion here. As a result, the Plaintiffs insist that the
DLT’s Decision is clearly erroneous as the record is
devoid of substantial, reliable, and probative evidence demonstrating the impact that § 25-3-3 would
have on Delta’s rates, routes, and services.
Conversely, Delta responds by claiming that the
record reflects that it did, in fact, produce ample,
credible evidence to demonstrate that compliance,
even with just the premium pay provision of § 25-33, logically relates to, and has a substantial impact
on, Delta’s services. Delta contends that empirical or
quantifying evidence is not needed in order to determine whether a law, rule, or regulation is related

34a
to the rates, routes, and services of an airline, but
instead, the reviewing court need only look at the
logical effects that a statute would have on the rates,
routes, or services of air carriers. Delta further asserts that such analysis “cannot be applied on a
piecemeal basis” to some, based on the potential effects on those specific employers, but not to others,
but must be “preempted as to all carriers or to none.”
Consequently, Delta claims that this Court may not
“engage in a case by case analysis” of each individual
airline and the specific effect that § 25-3-3 would
have on its operations, but instead, must ask whether compliance with § 25-3-3 would logically affect the
rates, routes, or services of any airline carrier. Delta
further argues that the record provides an abundance of legally competent evidence demonstrating
the resulting impact. In particular, Delta asserts
that both Mr. Fredericks and Ms. LaPlante testified
that Sundays and holidays are some of the busiest
times for airports, and maintaining adequate levels
of employees on these days is necessary to ensure
competitiveness in the marketplace. Delta further
argues that the testimony of Mr. Fredericks and Ms.
LaPlante demonstrates that Delta would be motivated to change its staffing decisions and, as a result,
alter the customer service it provides to passengers
at TF Green as a direct result of compliance with §
25-3-3. Delta explains that the record additionally
shows that the premium pay requirement could motivate Delta to utilize less staff on Sundays or altogether cease operating on Sundays—“exactly the result that the statute envisions.” As a result, Delta
asserts that since reducing staffing would logically
affect its routes and services, the DLT properly
found that the ADA preempts the application of § 25-

35a
3-3. Delta concludes that the DLT’s Decision was
based on witness testimony and the evidence before
it, which must be entitled deference and may not be
overturned by this Court unless clearly erroneous.
Here, the DLT accepted Mr. Fredericks and Ms.
LaPlante’s predictions regarding the effects that §
25-3-3 would have on Delta’s rates, routes, and services as credible, and favorably noted their demeanor and forthright answers. The DLT further explained that Ms. LaPlante’s testimony—which indicated that an increase in employees’ wages would, in
fact, affect Delta’s services—was both “persuasive”
and from “a unique perspective.” Id. In addition, the
DLT noted that although Mr. Fredericks’ testimony
was not particular to Delta, it was “credible as pertaining to air carriers and supportive of the points
made by Ms. LaPlante.” Id. In deciding issues of fact,
the Court may not weigh the evidence of the administrative record, pass upon the credibility of witnesses, or substitute its findings of fact for those made by
the DLT. See E. Grossman & Sons, Inc., 118 R.I. at
285, 373 A.2d at 501. Rather, the Court’s review is
limited “to an examination of the certified record” in
order to ascertain whether the DLT’s Decision is
supported by substantial evidence. See Ctr. for Behavioral Health, R.I., Inc., 710 A.2d at 684. The record shows that Mr. Fredericks had personal
knowledge regarding the factors involved in attracting and maintaining air carrier services in Rhode Island and explained that the two main considerations
are cost and demand. Tr. at 22-23, 24, 37, 40-45. Mr.
Fredericks further emphasized that Sundays and
holidays are important days for RIAC and claimed
that a statute which allows employees to either refuse to work on Sundays and holidays or receive

36a
premium pay, could significantly impact the air carriers servicing RIAC. Tr. at 30-33. Mr. Fredericks
also asserted that additional labor costs in Rhode Island would make RIAC less competitive in the market for air services. Tr. at 25-26. Specifically, Mr.
Fredericks testified that increased labor costs “could
lead to reduction in service from a flight frequency
opportunity,” and could “diminish[] [RIAC’s] competitive advantage.” Tr. at 31. The record demonstrates
that, similarly, Ms. LaPlante had personal, more
specific, knowledge regarding Delta’s day-to-day operations at TF Green. Tr. at 49-50. Similar to Mr.
Fredericks, Ms. LaPlante claimed that Sundays and
holidays are extremely important to Delta. Tr. at 53.
Ms. LaPlante asserted that— as someone who is responsible for allocating money for employee salaries—if Delta is required to provide premium pay to
its Rhode Island employees for the hours worked on
Sundays and holidays, that requirement could impact the services that Delta provides on such days.
Tr. at 57, 61-63, 64. Ms. LaPlante also stated that
the increased costs might cause Delta to reduce staff
on Sundays and holidays and, as a result, become
less competitive. Tr. at 63-64.
Based on the record before it, the Court finds that
the DLT’s Decision is not clearly erroneous, but is
supported by adequate and legally competent evidence. Accordingly, the Court affirms the DLT’s Decision. See Ctr. for Behavioral Health, R.I., Inc., 710
A.2d at 684.
IV
Conclusion
After review of the entire record, this Court finds

37a
that the DLT’s Decision was neither affected by error
of law nor clearly erroneous. See § 42-35-15(g)(4) and
(5). The Plaintiffs’ substantial rights were not prejudiced. Accordingly, the Court affirms the DLT’s Decision.
Counsel shall submit the appropriate judgment
for entry.

38a
APPENDIX C
Superior Court of Rhode Island
Providence County
Kelvin RAMIREZ,
v.
RHODE ISLAND DEPARTMENT OF LABOR
AND TRAINING.
No. PC20123071.
September 3, 2014.
Decision
MCGUIRL, J. Before this Court are six consolidated appeals from decisions of the Rhode Island
Department of Labor and Training 1 (DLT), in which
the DLT issued decisions determining that the Director of the DLT could not exercise jurisdiction over
the disputes due to federal preemption under the
Airline Deregulation Act of 1978 (ADA). 49 U.S.C.
app. §§ 1301, et seq. Jurisdiction is pursuant to G.L.
1956 § 42-35-15. For the reasons set forth in this Decision, this Court reverses the decisions of the DLT
and remands them to the DLT for findings of fact.
I
Facts and Travel
The Petitioners in this matter were employees of
Delta Airlines, Inc. (Delta), at Delta’s facility at the
Plaintiffs filed a motion to consolidate on September 18, 2012
and Defendant did not object. Thereafter, Judge Matos granted
Plaintiffs’ motion to consolidate matters PC-2012-3071, PC2012-3072, PC-2012-3073, PC-2012-3074, PC-2012-3075, and
PC-2012-3076.
1

39a
T.F. Green Airport in Warwick, Rhode Island. The
Petitioners filed Complaints with the DLT between
September 6 and September 13, 2011, alleging that
Delta had violated the provisions of G.L. 1956 § 25-33, “Work on Sundays or holidays.” Specifically, the
Petitioners assert that Delta violated § 25-3-3 by
failing to pay Petitioners one and one-half times
their normal rate of pay for work performed on Sundays and holidays.
The DLT held a hearing on these matters before
Hearing Officer Ellen McQueeney Lally (Hearing Officer) on May 9, 2012. During that hearing, Delta asserted that all complaints should be dismissed because § 25-3-3 was preempted by the ADA, 49 U.S.C.
§ 40101(a)(12). 2 On May 18, 2012, the Hearing Officer issued decisions for each Petitioner’s claim. 3
The Hearing Officer, DLT Director’s designee, declared that § 25-3-3 could not be applied against Delta. (Hearing Officer’s Decision at 3.) Specifically, the
Hearing Officer explained that the wages of airline
employees are related to prices, routes, and services
within the meaning of the ADA. Id. Accordingly, the
Hearing Officer held that the DLT was “preempted
from enforcing wage laws for airline employees” and
that the DLT had no jurisdiction to adjudicate the
Petitioners’ claims. Id.
Thereafter, Petitioners filed timely appeals purAt the hearing, the Hearing Officer addressed the Petitioners
and stated that “[Delta’s Counsel] [had] submitted to the DLT,
a letter along with some case law alleging or indicating that he
believes that this matter is something that state law cannot
impact.” (Hr’g Tr. at 3.)
3 The DLT issued six separate decisions; however, the decisions
were indistinguishable in substance—the only difference being
the date that each complaint was originally filed.
2

40a
suant to § 42-35-15. The Petitioners moved to consolidate their appeals into one action because each case
presented identical legal issues. See Super. R. Civ. P.
7(b)(3)(ii). The DLT and Delta did not object to consolidation, and the motion was granted by this Court
on or about October 3, 2012. The parties submitted
memoranda. Following a chamber pretrial conference on July 30, 2013, this Court requested briefing
from both parties regarding Petitioners’ demand that
the Court disregard an Affidavit submitted by Delta
as an exhibit to its Memorandum of Law filed February 25, 2013. 4 Thereafter, Delta requested that
this Court allow it to withdraw the Affidavit as an
exhibit on August 7, 2013. The Petitioners filed a response to Delta’s Motion to Withdraw Exhibit on
August 16, 2013. 5
II
Standard of Review
This Court’s review on appeal from a decision of
an administrative agency is governed by the Rhode
Island Administrative Procedure Act, §§ 42-35-1, et
seq. See Rossi v. Employees’ Retirement Sys. of R.I.,
895 A.2d 106, 109 (R.I. 2006). This Court may reverse, modify, or remand an agency’s decision if
“substantial rights of the appellant have been prejudiced because the administrative findings, inferences, conclusions, or decisions are:
Affiant is Vincent Joshua Maxwell, the Airport Customer
Service Time and Attendance Manager for Delta.
5 Substantively, Petitioners assert that this Court cannot consider the Affidavit because the Affidavit was not submitted at
the hearing before the DLT, was not part of the certified administrative record, and constitutes inadmissible hearsay.
4

41a
“(1) In violation of constitutional or statutory provisions;
(2) In excess of the statutory authority of the agency;
(3) Made upon unlawful procedure;
(4) Affected by other error or law;
(5) Clearly erroneous in view of the reliable, probative, and substantial evidence on the whole record;
or
(6) Arbitrary or capricious or characterized by abuse
of discretion or clearly unwarranted exercise of discretion.” Sec. § 42-35-15(g).
This Court’s review of an agency decision is, in essence, “an extension of the administrative process.”
R.I. Pub. Telecomms. Auth. v. R.I. State Labor Relations Bd., 650 A.2d 479, 484 (R.I. 1994).
In reviewing an agency decision, this Court “shall
not substitute its judgment for that of the agency as
to the weight of the evidence on questions of fact.”
Sec. 42-35-15(g). This Court will defer to an agency’s
factual determinations so long as they are supported
by legally competent evidence. Town of Burrillville v.
R.I. State Labor Relations Bd., 921 A.2d 113, 118
(R.I. 2007). Our Supreme Court has defined legally
competent evidence as “some or any evidence supporting the agency’s findings.” Auto Body Ass’n of
R.I. v. State of R.I. Dep’t of Bus. Regulation, 996 A.2d
91, 95 (R.I. 2010) (citation omitted). “[I]f ‘competent
evidence exists in the record, [this] Court is required
to uphold the agency’s conclusions.”’ Auto Body
Ass’n, 996 A.2d at 95 (quoting R.I. Pub. Telecomms.
Auth., 650 A.2d at 485).
However, a judicial officer may reverse such find-

42a
ings in instances wherein the conclusions and the
findings of fact are “totally devoid of competent evidentiary support in the record,” Milardo v. Coastal
Res. Mgmt. Council, 434 A.2d 266, 272 (R.I. 1981), or
from the reasonable inferences that might be drawn
from such evidence. Guarino v. Dep’t of Soc. Welfare,
122 R.I. 583, 588–89, 410 A.2d 425, 428 (1980). “An
administrative decision which fails to include findings of fact required by statute cannot be upheld.
Sakonnet Rogers, Inc. v. Coastal Res. Mgmt. Council,
536 A.2d 893 (1988). A Superior Court justice has
some discretion in fashioning a remedy when hearing an appeal from agency decision. Birchwood Realty, Inc. v. Grant, 627 A.2d 827 (1993). A reviewing
court will neither search record for supporting evidence nor will it decide for itself what is proper in
the circumstances, but will either order hearing de
novo or remand in order to afford agency an opportunity to clarify and complete its decision. Hooper v.
Goldstein, 104 R.I. 32, 241 A.2d 809 (1968). Under
the Administrative Procedure Act, the Superior
Court has authority to remand for taking of further
evidence. Lemoine v. Dep’t of Mental Health, Retardation and Hospitals, 113 R.I. 285, 320 A.2d 611
(1974).
In contrast to its review of findings of facts, this
Court reviews agency determinations of law de novo.
Arnold v. R.I. Dep’t of Labor and Training Bd. of Review, 822 A.2d 164, 167 (R.I. 2003). In general, this
Court will accord deference to an agency’s interpretation of ”’a statute whose administration and enforcement have been entrusted to the agency.”’ Town
of Richmond v. R.I. Dep’t of Envtl. Mgmt., 941 A.2d
151, 157 (R.I. 2008) (quoting Murray v. McWalters,
868 A.2d 659, 662 (R.I. 2005)). However, “[d]eference

43a
is not owed when the agency has completely failed to
address some factor [,] consideration of which[,] was
essential to [making an] informed decision.” See
Nat’l Wildlife Fed’n v. Nat’l Marine Fisheries Serv.,
422 F.3d 782, 798 (9th Cir. 2005).
III
Background of § 25-3-3
Section 25-3-3, like other Sunday closing laws6,
was enacted pursuant to the “police power to preserve the health, safety and welfare of its citizens.”
Dilloff, Never on Sunday: The Blue Laws Controversy, 39 Md. L. Rev. 679 (1980). 7 In City of Warwick v.
Almacs, 442 A.2d 1265, 1270 (R.I. 1982), the Rhode
Island Supreme Court concluded that “the clear objective of Rhode Island’s closing law is to promote a
common day of rest and recreation.” This decision
embraces the United States Supreme Court’s view
that Sunday closing laws serve clearly secular purposes: “set[ting] one day apart from all others as a
day of rest, repose, recreation and tranquility—a day
which all members of the family and community
have the opportunity to spend and enjoy together.”
McGowan v. Maryland, 366 U.S. 420 (1961). The
Sunday restrictions were first called “blue laws” during the
colonial period. Lesley Lawrence-Hammer, Red, White, but
Mostly Blue: The Validity of Modern Sunday Closing Laws (citing Under the Establishment Clause, 60 Vand. L. Rev. 1273,
1306 (2007); David N. Laband & Deborah Hendry Heinbuch,
Blue Laws: The History, Economics, and Politics of SundayClosing Laws 8 (1987)).
7 “These statutes are an ancient institution in American law …
[;] [however,] they are embattled by widespread efforts to repeal or invalidate them or to avoid their application, often initiated by large retail corporations.” 10 ALR 4th 246 (originally
published in 1981).
6

44a
Rhode Island legislature effectuated this purpose, in
part, by drafting § 25-3-3(a) 8, which requires employers to pay their employees at least one and onehalf times their normal rate of pay for work conducted on Sundays and holidays. The legislature further
realized their goal of promoting a common day of
rest and recreation by drafting and passing § 25-33(a)(1) 9, which provides that an employee cannot be
discharged or otherwise penalized for refusing to
work on Sundays or holidays enumerated within
Chapter 25. 10
IV
DLT’s Decisions
In 1978, Congress enacted the ADA. 49 U.S.C.
app. §§ 1302(a)(4), 1302(a)(9). The ADA essentially
deregulated domestic air transport in order “[t]o ensure that the States would not undo federal deregulation with regulations of their own.” Morales v.
Trans World Airlines, Inc., 504 U.S. 374, 378 (1992).
In addition, the ADA included a preemption clause
which read in relevant part: “[N]o State … shall enact or enforce any law, rule, regulation, standard, or
other provision having the force and effect of law relating to rates, routes, or services of any air carrier
“Work performed by employees on Sundays and holidays must
be paid for at least one and one-half (1 1/2) times the normal
rate of pay for the work performed ....” Sec. 25-3-3(a).
9 “… [I]t is not grounds for discharge or other penalty upon any
employee for refusing to work upon any Sunday or holiday
enumerated in this chapter… .” Sec. 25-3-3(a)(1).
10 Holidays include Sunday, New Year’s Day, Dr. Martin Luther King, Jr.’s Birthday, Memorial Day, Fourth of July, Victory Day, Labor Day, Columbus Day, Veterans’ Day, Thanksgiving, and Christmas.
8

45a
… .” 49 U.S.C. app. § 1305(a)(1). Reenacting Title 49
of the U.S. Code in 1994, Congress revised this
clause to read: “[A] State … may not enact or enforce
a law, regulation, or other provision having the force
and effect of law related to a price, route, or service
of an air carrier ....” Sec. 41713(b)(1). 11 In the instant
matter, the DLT found that the wages of airline employees were related to prices, routes, and services
as contemplated by the language of the ADA. (Hearing Officer’s Decision at 3.) The Hearing Officer determined that it was unnecessary to take testimony
or receive evidence because the issue was a question
of law. 12 The DLT, therefore, declared that it was
without jurisdiction to adjudicate the claims and
dismissed each claim.
VI
Preemption
On appeal, Petitioners assert that the DLT’s decisions were affected by error of law. Specifically, the
Petitioners maintain that the ADA does not preempt
§ 25-3-3. In response, Delta and the DLT aver that
the Hearing Officer properly determined that § 25-33 is preempted by the ADA. The Hearing Officer’s
decisions were based on the federal preemption doctrine.
The foundation of the federal preemption doctrine
Congress intended the revision to make no substantive
change. Pub. L. No. 103-272, § 1(a), 108 Stat. 745.
12 This Court must determine whether the instant matter involves a question of pure law or mixed questions of law and
fact. Specifically, this Court must examine whether the record
from the DLT’s May 9, 2012 hearing is sufficient to determine
the issues presented by this controversy.
11

46a
is Article VI, Clause 2 of the United States Constitution, the Supremacy Clause. Verizon New England
Inc. V. Rhode Island Pub. Utils. Comm’n, 822 A.2d
187, 192 (R.I. 2003). Preemption means that
“[w]here a state status conflicts with, or frustrates,
federal law, the former must give way.” CSX
Transp., Inc. v. Easterwood, 507 U.S. 658, 663 (1993)
(citing U.S. CONST., art. VI, cl. 2; Maryland v. Louisiana, 451 U.S. 725, 746 (1981)). There are three
main categories of federal preemption. Verizon New
England Inc., 822 A.2d 187 at 192 (citing Shaw v.
Delta Airlines, Inc., 463 U.S. 85, 95-96 (1983)). The
first, “express preemption,” exists when a federal
statute “expressly provide[s] that it shall supersede
related state law,” and that the state law in question
“falls within the class of law that Congress intended
to preempt.” Id. (citing Gade v. Nat’l Solid Wastes
Mgmt. Ass’n, 505 U.S. 88, 95-97 (1992)). The second,
“conflict preemption,” exists “when compliance with
both federal and state regulations is a physical impossibility [and] when under the circumstances of a
particular case, [the state law] stands as an obstacle
to the accomplishment and execution of the full purposes and objectives of Congress.” Id. (quoting Florida Lime & Avocado Growers, Inc. v. Paul, 373 U.S.
132, 142-43 (1963); Crosby v. Nat’l Foreign Trade
Council, 530 U.S. 363, 373 (2000) (internal quotations omitted)). The third, “field preemption,” exists
if Congress implemented a comprehensive regulatory framework, thereby indicating that its intention
to reserve the area solely for federal control. Id.
Field preemption renders any state regulation in
that same field invalid. Id.
This Court finds that express preemption applies
to these particular circumstances. To determine

47a
whether the ADA expressly preempts § 25-3-3, the
Court must ascertain whether the ADA “expressly
provide[s] that it shall supersede related state law”
in the first place. Verizon New England Inc., 822
A.2d at 192. In preemption cases, courts “start with
the assumption that the historic police powers of the
States were not to be superseded” by a federal statute unless it was the “clear and manifest purpose of
Congress” to do so. California v. ARC Am. Corp., 490
U.S. 93, 101 (1989). The Court presumes that “Congress does not cavalierly pre-empt” state law, Medtronic, Inc. v. Lohr, 518 U.S. 470, 485 (1996), particularly when Congress passes a statute “in a field
which the States have traditionally occupied.” Id.
(quoting Rice v. Santa Fe Elevator Corp., 331 U.S.
218, 230 (1947) (internal quotations omitted)). “If the
statute contains an express pre-emption clause, the
task of statutory construction must in the first instance focus on the plain wording of the clause,
which necessarily contains the best evidence of Congress’ pre-emptive intent.” CSX Transp., Inc., 507
U.S. at 664.
In 1978, Congress determined that “maximum reliance on competitive market forces” would best further “efficiency, innovation, and low prices” as well
as “variety [and] quality … of air transportation services,” and enacted the ADA. 49 U.S.C. app. §§
1302(a)(4), 1302(a)(9). “To ensure that the States
would not undo federal deregulation with regulation
of their own, the ADA included a pre-emption provision, prohibiting the States from enforcing any law
‘relating to rates, routes, or services’ of any air carrier.” Morales, 504 U.S. at 378-79 (citing 49 U.S.C.
app. § 1305(a)(1)). Section 1305(a)(1) expressly
preempts the States from “enact[ing] or enforce[ing]

48a
any law, rule, regulation, standard, or other provision having force and effect of law relating to rates,
routes, or services of any carrier ....” “For purposes of
the present case[s], the key phrase, obviously, is ‘relating to.”’ Id. at 383; see Black’s Law Dictionary
1158 (5th ed. 1979) (“[T]o stand in some relation; to
have bearing or concern; to pertain; refer; to bring
into association with or connection with”). “The ordinary meaning of these words is a broad one … and
the words thus express a broad pre-emptive purpose.” See Morales, 504 U.S. at 383-84; see also Am.
Airlines, Inc. v. Wolens, 513 U.S. 219 (1995); Rowe v.
New Hampshire Motor Transport Ass’n, 552 U.S. 364
(2008).
In Morales, the United States Supreme Court likened the language of § 1305(a)(1)’s express preemption clause to a similar express preemption provision
contained in the Employee Retirement Income Security Act of 1974 (ERISA), 29 U.S.C. § 1144(a), which
preempts all state laws “insofar as they … relate to
any employee benefit plan.” 504 U.S. at 384. 13 (Emphasis added.) For example, the United State Supreme Court held that the “breadth of [ERISA’s express preemption clause’s] reach is apparent from
[its] language.” See id. at 384 (quoting Shaw, 463
U.S. at 95-96); see also Metropolitan Life Ins. Co. v.
Massachusetts, 471 U.S. 724, 739 (1985) (commenting on the “broad scope” of ERISA’s express preemption provision); Pilot Life Ins. Co. v. Dedeaux, 481
U.S. 41, 47 (1987) (finding that the language of
In the FAAA Act’s legislative history, Congress endorsed the
“broad preemption interpretation” adopted by the Court in Morales. See H.R. Conf. Rep. 103-677, at 83 (1994), reprinted in
1994 U.S.C.C.A.N. at 1755.
13

49a
ERISA’s express preemption clause gives the clause
an “expansive sweep” and was “deliberately expansive”). Accordingly, the United State Supreme Court
adopted an expansive interpretation of the ADA’s
express preemption clause because the relevant language of ERISA’s express preemption clause was
identical: “[S]tate enforcement actions having a connection or reference to airline ‘rates, routes, or services’ are pre-empted under 49 U.S.C. app. §
1305(a)(1).” Morales, 504 U.S. at 384. Specifically,
the Court held that a state law may “relate to the
ADA, and therefore run afoul of the ADA’s preemption clause, even though such law has only an indirect effect on the rates, routes, or services of an air
carrier.” See id. at 385-86. However, the Court
acknowledged that some state action that may affect
an air carrier’s fares is “too tenuous, remote, or peripheral a manner” to have preemptive effect. Id. at
390. Moreover, Morales, “express[ed] no views about
where it would be appropriate to draw the line.” Id.
The United States Supreme Court revisited the
issue of where to draw the line in interpreting the
ADA’s preemptive scope in Wolens. The majority
held that state action was preempted to the extent
that it imposed its substantive standards on the
prices, routes, or services of an air carrier and rejected an interpretation of the ADA’s preemption language, limiting preemption to state enactments focusing solely on airlines. Wolens, 513 U.S. at 227232; see also Morales, 504 U.S. at 386; Rowe, 552
U.S. at 373-76 (rejecting confining preemption to
state laws that are aimed at economic regulation as
opposed to other state interests). The state laws
preempted in Morales, Wolens, and Rowe involved,
respectively, deceptive advertising, alleged consumer

50a
abuse, and protection of health. Specifically, “[t]he
state regimes at issue in Morales and Wolens, although based on generally applicable statutes, involved detailed guidelines crafted by state authorities directed against airlines; the statute in Rowe directly targeted carriers.” DiFiore v. Am. Airlines,
Inc., 646 F.3d 81, 87 (2011).
With respect to a wage-related state law facing
preemption by the ADA, the First Circuit held that
the ADA preempted a Massachusetts tips law, which
set forth that no employer or other person shall demand or accept from any service employee any payment or deduction from a tip or service charge given
to such service employee by a patron. DiFiore, 646
F.3d at 87; 49 U.S.C.A. § 41713(b)(1); M.G.L.A. ch.
149, § 152A(b)(f). In doing so, the Court explained
that the State law directly “related to” how airline
services were performed because it attempted to
prohibit airlines from instituting a two dollar service
charge for bags checked at the airport’s curb. However, the First Circuit also referred to a case “declining to preempt [a] state prevailing wage law.” Id.
(citing Californians for Safe and Competitive Dump
Truck Transp. v. Mendonca, 152 F.3d 1184, 1189
(9th Cir. 1998), cert. denied, 526 U.S. 1060 (1999))
(holding that California’s Prevailing Wage Law
(CPWL) was not “related to” motor carrier enterprises’ prices, routes, and services within meaning of
preemption clause of Federal Aviation Administration Authorization Act, and thus the prevailing wage
law was not preempted). The First Circuit stated
that “the Supreme Court would be unlikely—with
some possible qualifications—to free airlines … from
prevailing wage laws ....” DiFiore, 646 F.3d at 87.
However, “such measures must impact airline opera-

51a
tions—and so, indirectly, may affect fares and services.” Id.
The tips law can be distinguished from the prevailing wage laws because “the tips law does more
than simply regulate the employment relationship …
[;] the tips law had a direct connection to air carrier
prices and services and can fairly be said to regulate
both.” Id. Specifically, “the airline’s ‘price’ includes
charges for such ancillary services as well as the
flight itself.” Id. For example, “[t]o avoid having a
state law deem the curbside check-in fee a ‘service
charge’ would require changes in the way the service
is provided or advertised.” Id. at 88. However, the
court did not find that state regulation is preempted
wherever it imposes costs on airlines and therefore
affects fares because costs “must be made up elsewhere, i.e., other prices raised or charges imposed.”
Id. at 89.
In particular, 49 U.S.C.A. § 41713(b)(1), in pertinent part, provides that “a State … may not enact or
enforce a law, regulation, or other provision having
the force and effect of law related to a price, route, or
service of an air carrier ....” (Emphasis added.). However, the ADA does not preempt any state regulation
that affects fares, regardless of the remoteness of the
state regulation to the transportation functions protected by the ADA. See Thompson v. U.S. Airways,
Inc., 717 F. Supp. 2d 468, 477-79 (E.D. Pa. 2010) (the
ADA does not preempt all state employment claims
against airlines). 14
In Abdu-Brisson v. Delta Airlines, Inc., 128 F.3d 77, 85 (2d
Cir. 1997), Delta argued that the ADA preempted plaintiffs’
claims because “there [was] a direct relationship between the
relief sought and Delta’s prices.” The Court discussed that air

14

52a
Whether a law is related to prices, routes, or services includes questions of fact; namely, the degree
to which wages relate to an air carrier’s prices,
routes, and services. In reviewing the administrative
record, however, this Court finds no determination
was made as to what effect enforcing § 25-3-3(a)
would have on Delta’s prices or how implementing §
25-3-3(a) relates to an air carrier’s ability to control
its prices, routes, and services. See Sakonnet Rogers,
Inc., 536 A.2d at 896 (an administrative decision
that fails to include findings of fact required by statute cannot be upheld). Here, the Hearing Officer
viewed the question of preemption to be a question of
pure law. (Hr’g Tr. at 3); (Hearing Officer’s Decision
at 3.) However, to ascertain whether or not § 25-33(a) is preempted by the ADA, the Hearing Officer
would have had to adduce some evidence that Delta
employees’ wages were related to Delta’s rates,
routes, or services. See Hooper, 104 R.I. at 44-45, 241
A.2d at 815-16 (holding that a Rhode Island court
will not search the record for supporting evidence or
decide for itself what is proper, but instead either
carriers are not sensitive to ordinary pricing structures; rather
than being propelled by cost-plus bases, air transportation
prices are pushed principally by “yield management systems.”
Id. “Yield management systems are designed to schedule flights
at the maximum capacity possible.” Aubrey B. Colvard, Trying
to Squeeze into the Middle Seat: Application of the Airline Deregulation Act’s Preemption Provision to Internet Travel Agencies, 75 J. Air L. & Com. 705, 725 (2010). Essentially, a yield
management system is a unique formula that is mainly controlled by forces of demand and competition, rather than costs.
See id. “Thus, because air carrier prices are not driven by common cost bases, things that may appear to affect air carrier
prices for the purpose of ADA preemption may in fact only have
an insignificant effect.” Id.

53a
order a hearing de novo or remand in order to afford
the board an opportunity to clarify or complete its
decision).
The Hearing Officer’s decisions effectively found
that every state statute that can be tied to an air
carrier’s prices, routes, or services through the use of
logic is preempted. See Hearing Officer’s Decision at
3 (“[t]hese cases convince me that the wages of airline employees come within the sweep of the ‘related
to price, route, or service of an air carrier’ language
of the ADA”). However, the United States Supreme
Court has never explicitly held that a state’s employee compensation statute is preempted by the
ADA. See Gennell v. FedEx Ground Package Sys.,
Inc., 05-CV-145-PB, 2013 WL 4854362 (D.N.H. Sept.
10, 2013). More recent decisions from the Massachusetts Federal District Court have “expressed skepticism at preemption claims that seek to invalidate …
[state] wage and hour laws.” Massachusetts Delivery
Ass’n v. Coakley, CIV-A 10-11521-DJC, 2013 WL
5441726 (D. Mass. Sept. 26, 2013) (citing Martins v.
3PD, Inc., No. 11–11313, 2013 WL 1320454, at 12
(D. Mass. Apr. 4, 2013)); see also Schwann v. FedEx
Ground Package Sys., Inc., CIV-A 11-11094-RGS,
2013 WL 3353776 (D. Mass. July 3, 2013) (stating
that wage laws may affect price, routes, and services, but that their effect is too “remote”).
The indirect economic impact of a state law of
general applicability is exactly the tenuous causeand-effect relationship that the First Circuit held
would not trigger preemption. See DiFiore, 646 F.3d
at 87. This Court agrees that such a categorical approach is inappropriate and that Delta has failed to
demonstrate the effect of § 25-3-3(a) on its prices,
routes, or services. See Schwann, 2013 WL 3353776,

54a
at *4; see also McGuire v. Reilly, 386 F.3d 45, 57 (1st
Cir. 2004) (discussing standard for facial invalidity).
The ADA’s preemption provision does not have “infinite reach.” Martins, 2013 WL1320454, at *12. That
a regulation on wages has the potential to impact
costs and therefore prices is insufficient to implicate
preemption. See DiFiore, 646 F.3d at 89; see also
S.C. Johnson & Son, Inc. v. Transp. Corp. of Am.,
Inc., 697 F.3d 544, 559 (7th Cir. 2012) (“It is important in this connection to consider whether enforcement of a state law has a generalized effect on
transactions in the economy as a whole, or if it affects only particular arrangements.”). Those courts
that have found that the ADA preempts state and
local regulation of the employment relationship have
done so on an “as-applied” basis. See, e.g., Sanchez,
2013 WL 1395733, at *13 (considering statute’s effect on defendant in isolation).
The Petitioners, Delta, and the DLT heavily rely
on DiFiore. However, unlike the Massachusetts tips
law that was at issue in DiFiore, the “Work on Sundays and holidays” statute, in relevant part § 25-33(a), a direct connection to Delta’s prices, routes, or
services has not been shown by Delta. Delta produced no evidence to establish the required relationship between its prices, routes, or services and the
Plaintiffs’ claims. Thus, the Hearing Officer needed
to hear, review, and weigh evidence that Plaintiffs’
claims have a sufficient connection to its prices,
routes, or services to warrant their preemption.
With respect to the effect an employees’ right to
refuse work on Sundays and holidays would have on
Delta’s ability to control its prices, routes, and services, Petitioners’ have asked this Court to disregard
an Affidavit submitted by Delta. (Delta’s Aff.). Delta

55a
requested that this Court allow it to withdraw the
Affidavit as an exhibit on August 7, 2013. Petitioners
filed a response to Delta’s motion to withdraw on
August 16, 2013, asserting that this Court could not
consider the material because the Affidavit was not
submitted at the hearing before the DLT, was not
part of the certified administrative record, and constitutes inadmissible hearsay. 15
Section 42-35-15, in pertinent part, provides that review is
limited to the record before the agency. However, § 42-35-15
provides two instances when the review may include evidence
not in the record. Section (e) of said provision notes that:
(e) If, before the date set for the hearing, application is made
to the court for leave to present additional evidence, and it is
shown to the satisfaction of the court that the additional evidence is material and that there were good reasons for failure
to present it in the proceeding before the agency, the court may
order that the additional evidence be taken before the agency
upon conditions determined by the court. The agency may modify its findings and decision by reason of the additional evidence and shall file that evidence and any modifications, new
findings, or decisions with the reviewing court.
Section (f) of § 42-35-15 permits:
[i]n cases of alleged irregularities in procedure before the
agency, not shown in the record, proof thereon may be taken in
the court. The court, upon request, shall hear oral argument
and receive written briefs.
Also, under the Federal Administrative Procedures Act
(APA), other courts have allowed supplementation of the record
where there is a failure to explain administrative action. See
Sierra Club v. Marsh, 976 F.2d 763, 772 (1st Cir. 1992) (citation omitted). Thus, though § 42-35-15 states that this Court’s
review of an administrative decision is “confined to the record”
— see Nickerson v. Reitsma, 853 A.2d 1202, 1206 (R.I. 2004)
(trial justice exceeded his authority under the APA by considering evidence outside the certified agency record including testimony about events that took place after the administrative
hearing)—this rule is not an absolute bar on this Court’s ability
to take notice of certain relevant materials. But see 73A C.J.S.
15

56a
Delta’s Affidavit is immaterial to the present controversy. The instant case does not involve Delta
employees’ right to refuse work on Sundays and holidays, but whether Delta employees are entitled to
receive time-and-one-half rate of pay for Sunday and
holiday work. The Affidavit at issue concerns the
negative consequences that Delta would experience
as a result of its employees being able to refuse work
on Sundays and holidays. It does not provide this
Court with any facts relevant to the effect a wage increase for Delta employees on Sundays and holidays
would have on Delta’s “price[s], route[s], or service
[s].” See 49 U.S.C.A. § 41713.
Here, whether the wage of an employee is related
to an air carrier’s prices, routes, and services is at
issue. The establishment of such a connection includes questions of fact. See Le Blanc v. Balon, 104
R.I. 517, 247 A.2d 92, 93 (1968) (finding in the context of a workmen’s compensation case that the determination of who is a motor vehicle “helper” within
the meaning of the Fair Labor Standards Act is a
question of fact). For example, in making her decision, the Hearing Officer stated, “[t]hese cases convince me that the wages of airline employees come
within the sweep of the ‘related to a price, route or
service of an air carrier’ language of the ADA.”
(Hearing Officer’s Decision at 3.) The Hearing Officer’s decision makes clear that she considered only
relevant case law when she made her decision. See
Sakonnet Rogers, Inc., 536 A.2d at 893 (an adminisPublic Administrative Law And Procedure § 407 (2012) (“Usually, a court trying the issues de novo may receive and consider
evidence other than that offered before the administrative
body.”).

57a
trative decision which fails to include findings of fact
required by statute cannot be upheld, § 42-3515(g)(6)). Whether the wages of air carrier employees
come “within the sweep” of the ADA must be measured, and that measurement must be based on facts
within the record.
Our Supreme Court has stated that “[t]he underlying philosophy of the administrative process for
settling disputes is to give finality to findings of fact
made by administrative agencies, when such findings are supported by competent evidence and are
procedurally proper.” Lemoine, 113 R.I. at 291, 320
A.2d at 614. After reviewing the record, the Court
finds that the Hearing Officer failed to sufficiently
develop the administrative record on the relationship between wages and “rates, routes, and services.”
See Cullen v. Town Council of Town of Lincoln, 850
A.2d 900 (R.I. 2004) (if an agency fails to disclose the
basic findings upon which its ultimate findings are
premised, the court will neither search the record for
supporting evidence nor will it decide for itself what
is proper in the circumstances).
Therefore, this Court finds the Hearing Officer did
not clearly develop the record on whether the wage
of an employee is related to an air carrier’s prices,
routes, and services. The purpose of requiring sufficient findings of fact is to prevent reviewing courts
from having to speculate as to the basis for the agency’s conclusions. See Autobody Ass’n, 996 A.2d at 95;
see also Milardo, 434 A.2d at 272. The deficiency in
the administrative record warrants remand to the
agency for development of the record pertaining to
whether the effect of wages on “rates, routes, and
services” is proximate or remote. See Hooper, 104
R.I. at 44-45, 241 A.2d at 815-16 (proper procedure is

58a
for court to order a hearing de novo or remand in order to afford the administrative agency an opportunity to clarify or complete its decision). The question of law at issue in the instant matter cannot be
reached without the Hearing Officer receiving testimony, affidavits, or some other admissible evidence
that concerns the relatedness between an increase in
wages and disruption of Delta’s ability to control its
“rates, routes, or services.”
IX
Conclusion
After review of the entire record, this Court
grants Delta’s motion to withdraw its Affidavit and
remands this matter to the Department of Labor and
Training for a hearing on the issue of the effect of
employee wages on Delta’s rates, routes, and services. This Court will retain jurisdiction. Counsel
shall submit the appropriate judgment for entry.

59a
APPENDIX D
State of Rhode Island and Providence Plantations
Department of Labor and Training
Division of Labor Standards
Kathleen Brown
Robin Brindle
Sandra Carter
Kimberly Clayman
Marcie LaPorte
Kelvin Ramirez
a/k/a Kevin Ramirez
vs.
Delta Airlines, Inc.

LS# 11-396
DECISION

These matters were originally heard on May 9,
2012 by the undersigned as the authorized representative of the Director of the Department of Labor
and Training (DLT). The hearings were conducted in
compliance with R.I.G.L. §28-14-19 as a result of
claims filed by several petitioners, against Delta Airlines, Inc., (Delta) alleging failure to pay premium
wages.
Decisions were rendered by the undersigned on
May 18, 2012 stating that the state law the petitioners were proceeding under was preempted by the
Airline Deregulation Act of 1978 (ADA) and DLT had
no jurisdiction in the cases. Timely appeals were
taken of those decisions to the Superior Court. The
cases were consolidated in the Superior Court. A decision by Judge Susan McGuirl of the Rhode Island
Superior Court was filed on September 3, 2014 remanding the matter back to the Department of La-

60a
bor & Training for further hearing and findings of
fact on the issue of the effect of employee wages on
Delta’s rates, routes or services. If the employee
wages were related to Delta’s rates, routes or services the preemption of the ADA be applicable.
Remand Hearing
The remand hearing was held on May 4, 2015.
The petitioners were represented by Vicki J. Bejma,
Esq. Delta Airlines was represented by Thomas R.
Gonnella, Esq and Ira G. Rosenstein, Esq. Kelly
Fredericks, President and CEO of the Rhode Island
Airport Corporation, and Sandra LaPlante, station
manager for Delta at TF Green Airport, testified on
behalf of Delta.
Mr. Fredericks testified that he has held his current position for approximately two years. He testified he had experience in the aviation and transportation industry for 30 to 35 years including as a civil
engineer and the chief operating officer of an international airport. He stated he oversaw a $2.5 million
expansion at an international airport. Mr. Fredericks testified that eight airline carriers operate at TF
Green Airport, Rhode Island’s primary airport, and
the airport services approximately 10,000 travelers
per day.
Mr. Fredericks testified that attracting and maintaining air carrier services at Green is a critical
component of his job. To aid him in this function he
meets with the air carriers serving Green two times
per year. Mr. Fredericks testified that the two main
considerations of airlines when thinking of coming to
Green or continuing there is demand and cost.

61a
Mr. Fredericks was asked if additional labor cost
in Rhode Island made the Rhode Island Airport Corporation less competitive in the market for air services. He answered affirmatively. Mr. Fredericks
testified that Sundays and holidays are important
days in the airline industry. He testified the airline
industry operates 365 days per year, 24 hours per
day and 7 days per week.
Under cross examination Mr. Fredericks acknowledged that a number of factors influence whether a
carrier will locate in Rhode Island. He testified those
factors include considerations such as airport location, lease terms, other transportation services,
technology, regulatory climate, workforce skill set,
tax breaks and local opposition to expansion.
Sandra LaPlante testified that she has been station manager for Delta for three years and worked
for Delta for twenty years. She has held the positions
of performance leader, customer service agent and
reservation agent for Delta. As station manager she
oversees the day to day operation, performs administrative work and leads a team of 25 employees.
Ms. LaPlante testified that Delta expects to deliver superior customer service to its customers and her
job is to carry out customer service at Green Airport.
She testified that service on Sunday and holidays is
important to Delta because they operate seven days
per week. She testified that currently Delta operates
four to five flights on Sundays at Green. They have
operated as many as 16 flights on Sundays. Ms.
LaPlante testified that she is not involved in deciding how many flights fly. Corporate networking
makes those decisions.

62a
Ms. LaPlante described the process used by Delta
to schedule employees at Green Airport. She testified
that she reviews the schedule to ensure that minimum staff is available to operate flights. She determines that the counter is staffed, the gates are
staffed and baggage service is staffed.
Ms. LaPlante testified that if Delta paid Sunday
and holiday premium pay to its Rhode Island workers it could impact or modify services the airline provided on those days. She gave the example that a
lobby agent is part of Delta’s ticket counter services.
If premium pay were required it could modify
whether Delta had a lobby agent on schedule to service customers.
Ms. LaPlante testified that she receives a budget
from corporate and a certain percentage of the budget is allocated for employees’ salaries and benefits.
She testified that if a cost was increased it would
disturb the budget and could result in Delta staffing
fewer employees or modifying services offered.
On cross examination Ms. LaPlante testified that
corporate determines minimum staffing levels. She
testified that they base it on analysis of the number
of flights and passengers served. She testified that
corporate sets the rates charged for flights, the
routes flown and the services offered by Delta.
Two of the complainants, Kathleen Brown and
Marcie LaPorte, testified. Ms. Brown submitted a
document (Complainant’s 2) that she prepared listing the Sundays and holidays worked by the individual complainants and their rates of pay. Ms.
LaPorte testified that she regularly works on Sundays and that the flight volume on Sundays fluctuated depending on the time of year. She testified

63a
that staffing levels fluctuate depending on flight volume.
Findings of Fact and Analysis
Ms. LaPlante testified that if Delta was required
to pay premium pay on Sunday or holidays it could
impact the level of services provided. She stated that
Delta could decide not to have certain employees,
who provided customer service, on the schedule for
those days. She also testified that she receives a
budget from corporate headquarters, with a certain
amount dedicated to employee salaries and benefits.
An increase in salaries would change the budget
with the possibility that an adjustment in services or
staffing would have to be made. I find this testimony
to be persuasive. Her twenty years with Delta, in
various positions, and particularly as a station manager overseeing customer service, gives her a unique
perspective. I find her testimony indicates that an
increase in employees’ wages would affect Delta’s
services.
Mr. Fredericks testified about the factors that an
air carrier looks at when determining whether to locate or continue at a particular airport. A number of
factors were mentioned by Mr. Fredericks including
cost. Although this information was not particular to
Delta I find it credible as pertaining to air carriers
and supportive of the point made by Ms. LaPlante.
The complainants argue that to determine if the
Rhode Island premium pay law affects Delta’s rates,
routes or services quantitative information must be
presented and Delta failed to do that. They further
argue that Ms. LaPlante and Mr. Fredericks cannot
provide the necessary information because each of

64a
them lacks specific knowledge of how Delta sets its
rates, routes and services. They argue Ms. LaPlante
lacks the knowledge because these decisions are
made above her level in the corporate structure and
Mr. Fredericks lacks the knowledge because he is
not employed by Delta nor involved in Delta’s decisions.
I find the holding in Massachusetts Delivery Association v. Coakley, 769 F.3d 11 (1st Cir. 2014) allows
for a determination even if quantitative information
is not presented. “We have previously rejected the
contention that empirical evidence is necessary to
warrant FAAAA preemption, and allowed courts to
“look to the logical effect that a particular scheme
has on the delivery of services or the setting of
rates.” N.H. Motor Transp. Ass’n v. Rowe, 448 F3d
66, 82 n.14. Second, this logical effect can be sufficient even if indirect, as described above.” Coakley at
21.
The claimants’ attorney has provided a case decided August 20, 2015, by the Washington Supreme
Court, Filo Foods, LLC v. The City of Sea-Tac, 2015
WL 494396 (2015). In that case the Court ruled on a
number of issues including whether a city ordinance,
setting a minimum wage, was preempted by the
ADA from being applied to the SeaTac Airport. The
Washington Court acknowledged that the United
States Supreme Court has given a broad interpretation to preemption language. However, it found the
ordinance (Proposition 1) was not preempted, … “because Proposition 1 regulates employer-employee relationships and its affect on airline prices and services is only indirect and tenuous.” Id. at *16.

65a
I find Filo Foods, LLC v. The City of Sea-Tac can
be distinguished from the case under consideration.
The Washington ordinance set a minimum wage of
$15.00 per hour. There is no indication of the previous minimum wage. The present case deals with
premium pay of time and one half on Sundays and
holidays. Testimony in this case was presented that
increased pay on Sundays and holidays could impact
staffing which would impact the level of service.
Based on that analysis I find that RIGL 25-3-3 is
preempted from application at TF Green Airport by
the ADA.
September 1, 2015 /s/ Mary Ellen McQueeney-Lally
Mary Ellen McQueeney-Lally
Representative of the Director
Department of Labor & Training
1511 Pontiac Avenue
Cranston, RI 02920

66a
APPENDIX E
State of Rhode Island and Providence Plantations
Department of Labor and Training
Division of Labor Standards
Kathleen Brown
vs.
Delta Airlines, Inc.

LS# 11-396

DECISION
Pursuant to Chapter 14 of Title 28 of the Rhode
Island General Laws, entitled “Payment of Wages,” a
hearing was conducted on May 9, 2012 by the undersigned, as the authorized representative of the Director of the Department of Labor and Training. The
hearing was conducted in compliance with R.I.G.L.
§28-14-19 as a result of a claim filed by the complainant, Kathleen Brown, against respondent, Delta
Airlines, Inc.
The complainant filed a complaint with the Department’s Division of Labor Standards on or about
September 6, 2011 alleging non payment of premium
pay for Sundays and holidays. Rhode Island’s statutes on this issue are found in Rhode Island General
Laws § 25-3-et seq. These statutes, with some exemptions, require that employers pay one and onehalf (1 ½) times the normal rate of pay to employees
who work on Sundays and holidays.
Complainant was one of twelve (12) Delta Airlines
employees who filed similar complaints. Ten (10) of
the employees who filed complaints appeared at the
May 9, 2012 hearing. One (1) of the complaining em-

67a
ployees did not appear at the hearing but submitted
an affidavit with information relative to the hours
she worked on Sundays and holidays.
Counsel for Delta Airlines, Inc., William O’Gara,
objected to the jurisdiction of the Department of Labor & Training in this matter. He based his objection
on the Airline Deregulation Act of 1978, 49 U.S.C.A.
§ 1301 et seq. He claimed the Act preempted states
from enacting and enforcing wage laws for airline
employees (letter dated November 16, 2011, copy enclosed).
ANALYSIS
The Airline Deregulation Act of 1978 (ADA) contains what is known as a preemption clause or provision. This preemption clause prohibits states from
enacting or enforcing a law or regulation related to a
price, route or service of an air carrier. The United
States Supreme Court has interpreted this section of
the Airline Deregulation Act in two cases, Morales v.
Transworld Airlines, Inc., 504 U.S. 374, 112 S. Ct.
2031, 119 L. Ed. 2d 157 (1992) and, American Airlines, Inc. v. Wolens, 513 U.S. 219, 115 S. Ct. 817,
130 L. Ed. 2d 715 (1995). It has interpreted a similar
preemption section found in the Federal Aviation
Administration Authorization Act of 1994 in the case
of Rowe v. New Hampshire Motor Transport Ass’n,
552 U.S. 364, 128 S. Ct. 989, 169 L. Ed. 2d 953
(2008). Additionally, the United States Court of Appeals for the First Circuit has rendered a recent decision on this issue, DiFiore v. American Airlines,
Inc., 646 F.3d 81 (1st Cir. 2011).
The Morales case determined whether the ADA
preempted states from prohibiting what they consid-

68a
ered deceptive airline advertisements on fares. The
National Association of Attorneys General had issue
guidelines on the content and format of airline fare
advertising. The United States Supreme Court found
that this was impermissible under the preemption
clause of the ADA. “All in all, the obligations imposed by the guidelines would have a significant impact upon the airlines’ ability to market their product, and hence a significant impact upon the fares
they charge.” Morales 504 U.S. at 390. The impact
that advertising had on fares charged made the
guidelines a regulation that was related to a price,
route or service of an air carrier and therefore impermissible.
At issue in Wolens was American Airline’s frequent flyer program. Plaintiffs were participants of
the program and complained that changes in the
program instituted by American Airlines devalued
frequent flyer credits that participants had already
earned. Plaintiffs alleged the changes violated the
Illinois Consumer Fraud and Deceptive Business
Practices Act and was a breach of contract. The Supreme Court held that the preemption clause prohibited American Airlines from being sued under the
Illinois Consumer Fraud Act. “… the Consumer
Fraud Act serves as a means to guide and police the
marketing practices of the airlines; the Act does not
simply give effect to bargains offered by the airlines
and accepted by the airline customers. In light of the
full text of the preemption clause, and of the ADA’s
purpose to leave largely to the airlines themselves
and not at all to States, the selection and design of
marketing mechanisms appropriate to the furnishing of air transportation services, we conclude that §
1305(a)(1) preempts plaintiffs’ claims under the Con-

69a
sumer Fraud Act.” Wolens, 513 U.S. at 228. The
Court found that Plaintiffs could proceed in that case
under a breach of contract theory. A breach of contract, however, has no application in the present
matter.
In Rowe the United States Supreme Court held
that preemption language found in the Federal Aviation Administration Authorization Act prohibited
Maine from passing laws that regulated the delivery
of tobacco to customers within the State.
In DiFiore American Airlines was sued by several
of its employees. These employees, known as
skycaps, provided curbside luggage service to passengers. In addition to being paid wages by American Airlines these skycaps collected tips from passengers for the baggage they handled. In 2005 American Airlines began charging passengers a $2 fee for
each bag checked with the skycaps. Many passengers mistook this for a gratuity that was passed on
to the skycaps and stopped tipping them. The
skycaps sued American Airlines alleging the $2 fee
violated a Massachusetts statute governing tips.
The First Circuit Court of Appeals found that the
Massachusetts “tips law has a direct connection to
air carrier prices and services and can fairly be said
to regulate both.” DiFiore, 646 F.3d at 87. The court
held the preemption provision of the ADA did not allow the Massachusetts law to be applied to the
skycaps.
These cases convince me that the wages of airline
employees come within the seep of the “related to a
price, route or service of an air carrier” language of
the ADA. Consequently, I find the state of Rhode Island and the Department of Labor & Training is

70a
preempted from enforcing wage laws for airline employees. Therefore, I have no jurisdiction to adjudicate this claim and I dismiss it.
May 18, 2012

/s/ Mary Ellen McQueeney-Lally
Mary Ellen McQueeny-Lally, Esq.
Representative of the Director
Department of Labor & Training
1511 Pontiac Avenue
Cranston, RI 02920

